Office of Inspector General
Semiannual Report to Congress
October 1, 2011 — March 31, 2012
Mission
Statement




                                                  T   he mission of the U.S. Postal Service Office of Inspector General
                                                      is to conduct and supervise objective and independent audits,
                                                  reviews, and investigations relating to Postal Service programs and
                                                  operations to:
                                                   Preventand detect fraud, theft, and misconduct;
                                                   Promote economy, efficiency, and effectiveness;
                                                   Promote program integrity; and

                                                  Keep the Governors, Congress, and Postal Service management
                                                  informed of problems, deficiencies, and corresponding corrective
                                                  actions.




About the Cover: gopostTM, a new concept introduced by the Postal Service earlier this year, is currently being tested in Northern Virginia. The gopost units are automated, secured,
self-service parcel lockers placed in convenient locations where customers will be able to pick up or ship packages at their convenience. For more information go to www.gopost.com.



                                                                                                                                                 Semiannual Report to Congress
A message from the
Inspector General




The Postal Service is an invaluable part of the nation’s communications infrastructure. For more             The Postal Service’s challenges
than 230 years, the Postal Service has served to bind the nation together, promote democracy, and
enable commerce. Its mission remains largely unchanged despite the rapid changes in the way we               are considerable, but its
communicate and share information. In fact, its role as a reliable, secure, and trusted delivery provider
may be needed more than ever.                                                                                opportunities are great.
The Postal Service’s challenges are considerable, but its opportunities are great. Its 5-year business
plan and its efforts to realign its physical and human infrastructure are among the steps the Postal
Service is taking to position itself as a 21st century communications provider. Through our own
mission of promoting integrity and accountability, the Office of Inspector General (OIG) supports the
overall mission of the Postal Service. Our goal is to deliver optimal value to our joint stakeholders
through independent audits and investigations.

In our semiannual report, submitted pursuant to the Inspector General Act, we outline our work and
activities for the 6-month period ended March 31, 2012. In the first section, we highlight audits
and reviews that address risks in areas around the Postal Service’s strategic goals: improve service,
improve financial performance, and improve safety and employee engagement. The second section
highlights investigations conducted during this reporting period that contributed to safeguarding the
Postal Service’s revenue and assets and helped deter postal crimes.

Postal Service executives often work closely with their OIG counterparts to identify problems and
collaborate on solutions, which this report highlights. These efforts have resulted in significant savings
opportunities. During this period, we issued 64 audit reports and management advisories that resulted
in about $1.9 billion in monetary impact, and the Postal Service accepted 95 percent (80 of 84) of the
OIG’s significant recommendations.

We also fulfill our traditional OIG role of rooting out fraud, waste, and misconduct to protect the
Postal Service’s bottom line and maintain confidence in the mail. Our dedication to integrity,
accountability, and transparency means that no person in the organization is above the law or immune
from the ethical standards set by the Postal Service. In this period, we completed 1,648 investigations
that led to 250 arrests and more than $315 million in fines, restitutions, and recoveries, of which more
than $48 million went to the Postal Service.

The OIG — with the support of the Governors, Congress, and Postal Service management —
will continue to play a key role in maintaining the integrity and accountability of America’s Postal
Service, its revenue and assets, and its employees through its audit and investigative body of work.




David C. Williams
Inspector General




October 1, 2011 — March 31, 2012
Summary of Performance
For the Period October 1, 2011— March 31, 2012




 AUDITS
 Reports issued                                                                                                                                            64
 Significant recommendations issued                                                                                                                        84
 Total reports with financial impact                                                                                                                       13
     Funds put to better use                                                                                                                    $1,047,184,458
     Questioned costs                                                                                                                            $777,383,244
     Revenue Impact                                                                                                                              $105,058,258
 TOTAL                                                                                                                                       $1,929,625,960


 INVESTIGATIONS 1
 Investigations Completed                                                                                                                               1,648
 Arrests                                                                                                                                                  250
 Indictments/Informations                                                                                                                                 290
 Convictions/pretrial diversions 2                                                                                                                        324
 Administrative actions                                                                                                                                   800
 Cost Avoidance                                                                                                                                   $85,774,919
 Fines, Restitution, and Recoveries                                                                                                              $315,481,668
       Amount to the Postal Service 3                                                                                                             $48,428,097


 OIG HOTLINE CONTACTS
 Telephone calls                                                                                                                                       38,916
 E-Mail                                                                                                                                                21,558
 Standard Mail                                                                                                                                          1,366
 Voice Mail Messages                                                                                                                                      389
 Facsimile - FAX                                                                                                                                          312
 National Law Enforcement Communications Center                                                                                                           289
 TOTAL CONTACTS                                                                                                                                       62,830

 1
     Statistics include joint investigations with other law enforcement agencies.
 2
     Convictions reported in this period may be related to arrests in prior reporting periods.
 3
     Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




                                                                                                                                Semiannual Report to Congress
   TABLE OF CONTENTS



   INTRODUCTION.......................................................................................................................................... 3
   OFFICE OF AUDIT...................................................................................................................................... 5
   Goal 1: Improve Service................................................................................................................................................. 6
   Goal 2: Improve Financial Performance........................................................................................................................... 7
   Goal 3: Improve Safety and Employee Engagement....................................................................................................... 11

   REGULATORY STUDIES AND REPORTING OBLIGATIONS................................................................ 11
   PRESERVING ACCOUNTABILITY........................................................................................................... 12
   OFFICE OF INVESTIGATIONS................................................................................................................ 17
   Financial Crimes......................................................................................................................................................... 18
   Healthcare Fraud........................................................................................................................................................ 20
   Mail Theft................................................................................................................................................................... 21
   Official Misconduct..................................................................................................................................................... 22
   Contract Fraud............................................................................................................................................................ 23

   APPENDICES............................................................................................................................................ 25
   APPENDIX A — Reports with Quantifiable Potential Monetary Benefits........................................................................... 26
                Report Listing..................................................................................................................................... 27
   APPENDIX B — Findings of Questioned Costs.............................................................................................................. 30
   APPENDIX C — Recommendations That Funds Be Put to Better Use.............................................................................. 31
   APPENDIX D — Other Impacts.................................................................................................................................... 32
   APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions.................................................. 34
   APPENDIX F — Significant Management Decisions in Audit Resolution.......................................................................... 52
   APPENDIX G — Status of Peer Review Recommendations............................................................................................ 52
   APPENDIX H — Investigative Statistics......................................................................................................................... 53
   APPENDIX I — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC 3005 & 3007........ 54
   APPENDIX J — Closed Congressional and Board of Governors’ Inquiries........................................................................ 55

   SUPPLEMENTAL INFORMATION.......................................................................................................... 61
   Freedom of Information Act.......................................................................................................................................... 61
   Workplace Environment............................................................................................................................................... 61
   Acronym Guide........................................................................................................................................................... 62




October 1, 2011 — March 31, 2012
Introduction
                                                                                                                                 INTRODUCTION




                                                                              The Postal Service, as a trusted provider of delivery
                                                                              services, continues to have a vital role to play as a
                                                                              part of the nation’s communications infrastructure.

The communications revolution, the digital age, and globalism are having an enormous
impact on the Postal Service. The ways in which Americans communicate today are
different not just from a decade ago, but from a few years ago – some might argue from a
few minutes ago. Social networking and smart devices are changing communications and
commerce, as an increasing number of American consumers rely on handheld devices to
shop, bank, and interact with businesses.
While the digital revolution is remarkable, it is also           costs. In a separate report, we recommended the Postal
imperfect, leaving gaps in security, privacy, and inclu-         Service explore partnerships with commercial internet
sion. The Postal Service, as a trusted provider of delivery      service providers to increase broadband coverage in
services, continues to have a vital role to play as a part       areas they do not currently serve by offering master lease
of the nation’s communications infrastructure. The Postal        agreements to Postal Service real estate and installing
Service has begun the difficult task of reinventing its          wireless fidelity hot spots.
business model and refocusing its network. The path
forward probably will require a merging of traditional           As the Postal Service optimizes its network and assem-
postal services with new services that fill the gaps left by     bles a lean delivery system for mail and parcels, it should
the digital age.                                                 also take steps to enter the digital market, perhaps by
                                                                 making digital communications stronger and safer. This
As the cover of our semiannual report to Congress illus-         would help fill the void left by the shortcomings of the dig-
trates, the transition from traditional services to innovative   ital revolution. In our white paper, eMailbox and eLockbox:
ideas has already begun. Retail transactions are taking          Opportunities for the Postal Service, we suggest that the
place in new ways, whether through online sales or               Postal Service engage quickly and proactively to adapt to
through the use of gopost automated lockers for sending          new technologies and new market conditions. We offer
or receiving packages. Meanwhile, the traditional Post           two specific ideas, a Postal Service-sponsored, secure
Office continues to play a pivotal role in providing services    e-mail service (eMailbox) and an accompanying secure
to citizens.                                                     data storage service (eLockbox) to provide new options
                                                                 to residential customers and businesses, while leveraging
The Postal Service also has taken innovative steps with          key address management tools and other assets of the
some of its new product offerings, such as Priority Mail         Postal Service.
Flat Rate boxes, the Intelligent Mail barcode, and simpli-
fied addressing.                                                 All of these ideas play against a backdrop of considerable
                                                                 challenges for the Postal Service. Its net loss from fiscal
Yet, innovation needs further cultivation. In December           year 2007 through FY 2011 was $25 billion and its vol-
2011, we issued a report that reviewed innovation                ume decline in that period was 39 billion pieces of mail. In
best practices and processes among 14 organizations              a report on the Postal Service’s finances, we underscored
recognized as innovation leaders. Our work with these            the Postal Service’s financial challenges, including its
organizations identified 19 best practices that the Postal       ongoing liquidity concerns. An improved financial outlook
Service should consider implementing to foster and insti-        remains tied to legislative action and stakeholder coop-
tutionalize a strong culture of innovation. By using these       eration.
best practices, and partnering with stakeholders, the
Postal Service could tap into new revenue streams.               In the meantime, the Postal Service must continue to
                                                                 work toward positioning itself for success in a fast-
We also issued a report that recommended the Postal              changing communications environment. Its mission to
Service provide its underused retail space to federal, state     support the communication and commercial needs of
and municipal agencies to expand citizens’ access to ser-        Americans remains vital, but it is also broader than paper
vice and to increase revenue and potentially lower lease         and envelopes in this digital age.




October 1, 2011 — March 31, 2012                                                                                                            3
Office of

Audit
                                                                                                                       OFFICE OF AUDIT



Assessing Progress
Toward Strategic Goals




In this section, the Office of Audit (OA) assesses the Postal Service’s progress toward
the strategic goals articulated in its 2011 Annual Report to Congress and Comprehensive
Statement on Postal Operations - Delivering the New Reality. The Postal Service publishes
a number of reports that are responsive to different legislative requirements. They provide
stakeholders with an accounting of their activities and results. To avoid duplication and
improve consistency, their Annual Report to Congress, the Comprehensive Statement on
Postal Operations, and their Annual Performance Report and Plan are combined in this
single document. The chapter, the 2011 Annual Performance Report and 2012 Annual
Performance Plan, lists the Postal Service’s strategic goals as follows: to improve service,
improve financial performance, and improve safety and employee engagement. We have
organized our audit work in line with these goals. We also present work on the issues of
regulatory studies and reporting obligations, and preserving accountability.




Management Response to Audit Work
OA adheres to professional audit standards and generally presents its audit work to management for comments prior to
issuing a final report. Unless otherwise noted, management has agreed or partially agreed with our recommendations
and is taking or has already taken corrective action to address the issues raised.


October 1, 2011 — March 31, 2012                                                                                                    5
IMPROVE SERVICE


                                             GOAL 1: IMPROVE SERVICE
                                             The Postal Service’s priority is to provide timely, reliable delivery and improved customer service across all access
                                             points. Specifically, it is focusing on the quality and consistency of service as well as the speed and reliability of
                                             end-to-end mail delivery for all product lines.

                                                                                  Retail Facilities Discontinuance Program
                                                                                  The Postal Service could benefit from an integrated retail network optimization strategy that
                                                                                  includes short- and long-term plans, milestones, and goals. While the Postal Service has imple-
                                                                                  mented new regulations, policies, and procedures, it is unclear what specific changes will be
                                                                                  made, how long it will take to make them, and their anticipated benefits. Management stated
                                                                                  that they have a strategy to expand alternate channel access as part of their plan to reduce the
                                                                                  retail infrastructure, but did not establish specific goals for closing and consolidation initiatives.

                                                                     Standardization of Mail Processing Equipment
                                                                     at Processing and Distribution Centers
                                                                     The Postal Service achieved considerable standardization of letter and flat machines at the
                                                                     facilities reviewed. Overall, the Postal Service generally matched machine deployment to mail
                                                                     volume, although opportunities for further standardization exist at some facilities. Manage-
                                                                     ment agreed with our recommendation to periodically compare equipment to mail volumes at
Postage and other postal products and
services are sold at retail outlets around   processing and distribution centers (P&DC), and to redeploy excess mail processing equipment to those sites where
the country. The Postal Service has          equipment deficiencies exist. The Postal Service told us that they consistently review and analyze the capacity of their
32,000 retail offices, but more than         equipment, have removed more than 1,500 pieces of equipment over the past 3 years, and continue to identify areas
35 percent of its retail revenue comes       for improvement.
from expanded access locations, such
as grocery stores, drug stores, self-
service kiosks, and www.usps.com.            Mail Verification Procedures at Detached Mail Units
                                             Our report determined that Postal Service mail verification procedures were not always adequate to ensure that busi-
                                             ness mailings contained sufficient postage or met Postal Service specifications. We also found that Postal Service
                                             employees sometimes overrode system-generated notifications that mailings did not contain sufficient postage or meet
                                             specifications without verifying whether these notifications were valid. We further noted that detached mail unit staffing
                                             was inconsistent and did not always align with mailers’ production levels, resulting in idle staff time at some locations
                                             and heavy workload at others.

                                             Global Business Systems International Dispatch
                                             Our report determined that Global Business Systems (GBS) Dispatch controls over outbound international mail are
                                             adequate. However, controls within the Surface Air Management System do not always prevent outbound international
                                             mail from exceeding air carrier capacities. Additionally, GBS Dispatch does not detect destination country discrepancies
                                             between mailpieces scanned into Point of Service (POS) ONE terminals in the retail environment and the enhanced
                                             distribution barcode scanned during dispatch.

                                             Domestic Mail Manual Preparation and Acceptance Mail Instructions
                                             Our audit determined that the Postal Service has an opportunity to simplify mail preparation and acceptance instruc-
                                             tions. There presently are more than 2,300 pages of instructions in the Domestic Mail Manual1 (DMM) Furthermore,
                                             mailers are required to complete postage statements ranging from five to 25 pages. In addition, there are about
                                             800,000 mailing permits in the PostalOne1 System but only 39 percent are active. Our analysis revealed that the
                                             Postal Service could reduce the number of active permits from 300,000 to a range of 4,600 to 10,000 by eliminating
                                             multiple permits.

                                             Postal Service Pricing Strategy
                                             Our report found that the Postal Service has more than 7,600 domestic prices for the three product lines and almost
                                             50 percent of them contain low to no mail volume. In addition, the volume and revenue data used to support product
                                             pricing is about 140 days old and, by comparison, its domestic competition has real-time product data. Management
                                             is currently reviewing its costing systems and revenue and volume reporting procedures, and plans to optimize pricing.




                                             1
                                                 These 2,300 pages of instructions include the DMM, Quick Service Guides Handbook DM-109, Job Aids, and Customer Service Rulings.




6                                                                                                                                                                         Semiannual Report to Congress
                                                                                                                                                                              IMPROVE FINANCIAL PERFORMANCE

Contract Delivery Service Cost Controls in the Suncoast District
Our audit in the Suncoast District determined that contracts were appropriately awarded based on active deliveries.
However, administrative officials did not always perform route surveys to verify the actual number of deliveries. Without
current and accurate survey information, it may be difficult for contract officials to negotiate an accurate price for a
contract. We recommended that management complete the route surveys, train administrative officials on their respon-
sibilities, monitor completion of the surveys, and clarify the policy on performing route surveys. Management took
immediate action in implementing these recommendations


GOAL 2: IMPROVE FINANCIAL PERFORMANCE
The Postal Service faces the challenge of improving service while simultaneously working to cut costs. Following are
examples of work we conducted in this area to help the Postal Service improve operational efficiencies and to decrease
the risk of revenue loss.

Contracting Opportunities and Impact of the Service Contract Act
In response to a congressional request, we reviewed potential cost savings that could be achieved if the Postal Service
did not have to comply with the Service Contract Act (SCA) and took advantage of additional contracting out oppor-
tunities. Postal Service market research indicated that opportunities exist for cost savings if the agency did not have
to comply with the SCA. In addition, our analysis showed that Postal Service wages for cleaning/janitorial and postal
vehicle service (PVS) driver positions were higher than SCA rates. We estimate that the Postal Service could save about
$675 million annually if it outsourced cleaning/janitorial and PVS driver positions. Barriers to outsourcing the positions
include labor union agreements, workforce retention issues, fluctuations in market or economic conditions, and the
potential for congressional constituency concerns.



  Postal Service Financial Condition
  Volume Loss - In recent years the                            Liquidity Concerns - Amid chal-                             Business Plan - In 2011, to
  Postal Service has experienced                               lenging economic conditions,                                address its financial challenges,
  significant financial challenges.                            technological changes, and declin-                          the Postal Service initiated aggres-
  The Postal Service had over $25                              ing mail volumes, the Postal Service                        sive cost-cutting plans, increased
  billion in net losses for the period of                      may not have sufficient revenues                            financial controls, and streamlined
  October 2007 through September                               to cover its financial obligations.                         processes in an effort to reduce
  2011. The net loss was $3.3 billion                          Current financial projections                               its annual operational expenses
  for the 3 months ending December                             indicate that it will not be able to                        by $20 billion by 2015. These
  31, 2011, compared to a net loss                             make the required $11.1 billion                             initiatives consisted of a variety
  of $329 million for the same period                          prefunding payment for retiree                              of actions and future plans, such                    The Postal Service consistently reviews
  last year (SPLY). For the 3 months                           health benefits (PSRHBF) due in                             as: increasing pricing for mailing                   and analyzes the capacity of its equip-
                                                                                                                                                                                ment and it has removed more than
  ending December 31, 2011, com-                               FY 20122. Current projections also                          services, restructuring its health
                                                                                                                                                                                1,500 pieces of equipment over the
  bined First-Class Mail and Standard                          indicate that the Postal Service                            care programs, eliminating Saturday                  past 3 years. The organization continues
  Mail, which represent about 95                               will have a precariously low level                          delivery, expanding access to retail                 to identify areas for improvement.
  percent of the Postal Service’s total                        of cash and liquidity on September                          services, establishing a more flex-
  mail volume, decreased 2.7 billion                           30, 2012. Even without making the                           ible workforce, expanding products
  pieces, or 6.2 percent, compared                             PSRHBF payments in 2012, the                                and services, and redesigning
  to SPLY, with an associated drop                             Postal Service may not be able to                           administrative functions by reduc-
  in revenue of $650 million, or                               meet all of its financial obligations                       ing the number of area and district
  4.8 percent. These losses were                               in October 2012 when it is required                         offices and further decreasing the
  primarily caused by the economic                             to make a payment of about $1.3                             number of administrative, supervi-
  recession and the continuing                                 billion to the Department of Labor                          sor, and postmaster positions. Many
  changes in consumer preferences                              (DOL) for workers’ compensation.                            of these actions require legislation
  for electronic media over hard copy                                                                                      and stakeholder cooperation.
  correspondence and transactions.




2
  The 2012 Consolidated Appropriations Act, the most recent law affecting the PSRHBF payment, changed the due date of the $5.5 billion originally due September 30, 2011
to August 1, 2012. As a result, the total required PSRHBF payment in 2012 is $11.1 billion: $5.5 billion due by August 1, 2012, and $5.6 billion due by September 30, 2012.




October 1, 2011 — March 31, 2012                                                                                                                                                                                           7
IMPROVE FINANCIAL PERFORMANCE


    Past Network Optimization Initiatives
                                              The Postal Service uses Handbook PO-408,                valid business case exists for 31 of the 32 AMPs
                                              Area Mail Processing Guidelines, to consolidate         (97 percent) we reviewed. These business cases
                                              mail processing operations and perform post-            were supported by adequate capacity, increased
                                              implementation reviews. Area mail processing            efficiency, reduced workhours and mail process-
                                              (AMP) consolidations are designed to make               ing costs, and improved service standards.
                                              more efficient use of Postal Service assets.                Since FY 2004, the Postal Service improved
                                              The Postal Service expanded the AMP process             the AMP process by updating feasibility stud-
                                              to include a headquarters initiated top-down            ies and stakeholder communications. This
                                              process using computer modeling. The top-down           resulted in better data consistency, planning,
                                              process provides increased flexibility and more         and implementation as well as a better review
                                              consistent and standardized data analysis.              process. We noted that the projected AMP
                                                  Between FY 2004 and FY 2011, the Postal             annual savings for the 33 completed post-
                                              Service initiated 418 AMP studies, 103 of which         implementation reviews was about $94 million.
                                              were implemented. The Postal Service halted             The reviews indicate that the Postal Service
                                              66 studies due to service issues, inadequate            realized annual savings of about $323 million.
                                              savings, and stakeholder opposition; and it has         A variance of more than $229 million occurred
                                              249 in various stages of approval. During the           because concurrent initiatives’ savings were
                                              same period, the OIG issued 39 audit reports            included with AMP consolidation savings. There
                                              concerning AMP initiatives. The OIG issued              are 14 post-implementation reviews past due.
                                              two status reports on the Postal Service’s              Management plans to further enhance the AMP
                                              optimization initiatives, five reports about the        communication plan to incorporate stakeholder
                                              consolidation process, and 32 reports about             input and will ensure resources are allocated
                                              individual consolidations. We determined that a         to complete reviews in a timely manner.


                               Consolidation Reviews
                               In response to requests from Congress, we conducted the following reviews to assess the business case for consoli-
                               dation and the impact on customer service. An AMP consolidation involves moving all originating and/or destinating
                               mail from one or more facilities into other processing facilities to improve operational efficiency and/or service. In our
                               reviews, consolidations were supported and complied with established policies; however, we identified opportunities
                               for improvement.

                               Flint, MI, P&DC Consolidation
                               We reviewed the consolidation of mail processing operations from the Flint P&DC into the Michigan Metroplex P&DC
                               and found that a valid business case exists to consolidate destinating mail processing operations. Our analysis indicated
                               that (1) adequate capacity exists to process additional mail volumes at the gaining facility; (2) customer service will be
                               minimally impacted; (3) efficiency at the Michigan Metroplex P&DC should continue to improve with the addition of mail
                               volume from the Flint P&DC; (4) no career employee will lose their job with the Postal Service; however, some reassign-
                               ments will occur; and (5) equipment relocation costs were overstated, but had no material impact on the business case.

                               Industry, CA, P&DC Originating Mail Consolidation
                               We determined that a valid business case existed to consolidate originating mail processing operations from the Indus-
                               try P&DC to the Santa Ana P&DC, resulting in a projected cost savings of about $1.32 million annually. Our analysis
                               also indicated that adequate machine and facility capacity exists to process mail at the gaining facility; customer service
                               will be minimally impacted; no career employees will be laid off, although some reassignments will occur; the Santa
                               Ana P&DC is more efficient and processes its mail volume at a higher productivity level than the Industry P&DC; and
                               AMP policies and guidelines were generally followed.

                               Mansfield, OH, Mail Processing Center Consolidation
                               Our report determined that there is a business case supporting the consolidation, producing a first year savings of
                               about $4.8 million if the Postal Service successfully repositions affected employees. Our analysis also indicated that
                               there would be some staff reduction at the facility, there is adequate capacity at the Cleveland P&DC, and customer
                               service would be negatively impacted for some service, while others would be upgraded. Finally, some AMP policies
                               and guidelines were not followed, but this did not impact the business case supporting the consolidation.




8                                                                                                                        Semiannual Report to Congress
                                                                                                                                                                                IMPROVE FINANCIAL PERFORMANCE

Oxnard, CA, Processing and Distribution Facility Destinating Mail Consolidation
Our report determined that a business case exists to support the consolidation of the Oxnard, CA, processing and dis-
tribution facility (P&DF) destinating mail into the Santa Barbara, CA, P&DC, and that the consolidation should produce
substantial cost savings. We also determined that the Santa Barbara P&DC needs to optimize staffing.

21st Century Post Office: Share Excess Resources
Our report determined that Post Offices nationwide have surplus space, window, and retail workhour capacity to
perform additional government transactions. We recognize the Postal Service’s need to optimize its network through
consolidations and closures and believe management could employ underused Post Office resources to maintain or
expand the reach of government departments to citizens. Providing these services could save much needed resources,
expand public access to government services, and provide revenue to the Postal Service.

21st Century Post Office: Aligning with the National Broadband Infrastructure Initiative
Our report determined that for-profit Internet service providers (ISP) have provided thorough broadband coverage in
areas of the U.S. that would garner economic profit. However, there are areas (mostly rural) in the U.S. that do not have
service due to the negative financial return involved when entering those markets. The Postal Service can assist the
National Broadband Infrastructure (NBI) Initiative through a public/private partnership with commercial ISPs to provide
facilities and land for the expansion of the broadband infrastructure.

Management disagreed with our findings and recommendations to offer a master lease agreement to Postal Service
real estate and install Wi-Fi hotspots in areas without service. However, management generally agreed that a public/
private partnership could at some point further the interests of the NBI Initiative.

Integrating Sustainable Energy in Facilities
Our report determined that the Postal Service has not measured the performance of currently installed alternative                                                                 The OIG conducted a number of
energy systems and that additional alternative energy projects might not be economically viable for the Postal Service                                                            reviews to assess the business case
at this time. However, there might be future opportunities to integrate state-of-the-art alternative energy technologies                                                          for consolidation of mail processing
to provide potential savings and other benefits. We determined that the Postal Service needs to establish and monitor                                                             facilities and to determine the poten-
                                                                                                                                                                                  tial impact on customer service.
performance metrics for any new alternative energy systems it implements to determine whether these systems are
successful.


    Innovation Best Practices Analysis
    This audit’s objective was to                             its own formal innovation process                          six as aligning with its DRIVE3
    identify and learn about innova-                          or strategy or one that encourages                         (Delivering Results, Innovation,
    tion best practices the Postal                            partnering with stakeholders to                            Value and Efficiency) initiative.
    Service can consider using. We                            grow new revenue streams. With
    noted that, despite facing regula-                        the assistance of Kaiser Associates,                       We recommended that the remain-
    tory and market constraints to                            we conducted best practices/pro-                           ing 13 best practices be phased in
    innovation, the Postal Service                            cesses research at 14 companies                            over the subsequent 2 years, and
    has introduced innovations such                           representing a variety of industries.                      that management incorporates
    as Priority Mail® Flat Rate Boxes,                                                                                   innovation into the Postal Service’s
    the Intelligent Mail® barcode, and                        We identified 19 best practices                            strategic plan by March 30, 2012.
    simplified addressing. However,                           the Postal Service could use, of
    the Postal Service does not have                          which management identified




3
 DRIVE is a data-driven management system designed to improve USPS business strategy. It manages 36 key initiatives in a way that provides streamlined reporting and account-
ability http://blue.usps.gov/wps/portal




October 1, 2011 — March 31, 2012                                                                                                                                                                                           9
IMPROVE FINANCIAL PERFORMANCE

                                                                       Density of First-Class Mail on Air Transportation
                                                                       Our audit disclosed that some First-Class Mail was being transported by air in less-than-full mail
                                                                       containers bound for the same destinations across the country. Overall, the Postal Service could
                                                                       have saved at least $27.3 million if it maximized First-Class Mail container density before tender-
                                                                       ing them for transport by air from April 1, 2010, through March 31, 2011.

                                                                       Postal Vehicle Services Transportation Routes – Margaret L. Sellers P&DC
                                                                       Our report determined that Margaret L. Sellers P&DC management appropriately reviewed
                                                                       and adjusted Postal Vehicle Service (PVS) schedules due to the implementation of the Flats
                                                                       Sequencing System. However, P&DC officials could more effectively manage PVS transportation
                                                                       processes and schedules to reduce driver workhours, fuel use, and damage claims. Additionally,
                                                                       we verified that management properly cancelled or consolidated underutilized trips from highway
                                                                       contract routes that serve the P&DC.

                                                                       Standardization of Integrated Mail Handling System Loaders at Network
                                                                       Distribution Centers
                                                                       Our report determined that 247 of the 524 Integrated Mail Handling System loaders at Network
                                                                       Distribution Centers (NDC) have been modified to accommodate over-the-road (OTR) mail con-
                                                                       tainers. Once the remaining loaders are modified, the Postal Service would gain consistent use of
                                                                       the equipment in the NDC network and be able to improve the flow and redistribution of OTR
                                                                       containers, reduce cardboard purchases, avoid unnecessary transportation of empty OTR con-
                                                                       tainers, and eliminate a safety hazard.

                                                                         Inbound International Parcel Mail
                                                                         The Postal Service did not always identify, record, and bill foreign posts for inbound international
                                                                         parcel mail. As a result, the Postal Service did not collect $10.9 million in revenue for inbound
                                                                         international parcel mail received and delivered in the U.S. between calendar years 2008 and
                                                                         2010. While the Postal Service significantly improved the completeness of its billing records in
The Postal Service could have saved more
                                                                         2010 after the Foreign Post Settlement System replaced the International Accounting Branch
than $27 million in a year if it maximized       Settlement System in December 2009, improvements are needed over internal controls designed to identify, record,
First-Class Mail container density before        and bill for inbound international mail.
tendering the containers for transport by air.
                                                 Expedited Packaging Supplies Program
                                                 Our review disclosed that the Postal Service did not have an efficient and effective process in place to identify and
Packaging for expedited services (Express        reduce waste associated with its expedited packaging supply program. Specifically, the Postal Service could not
Mail and Priority Mail) is available for         account for at least 370 million Express and Priority Mail boxes and envelopes, at a cost of about $87 million, from FYs
free to customers. Our review deter-
mined that the Postal Service needs              2008 through 2010. This represents 19 percent of the total expedited packaging supplies produced for this timeframe.
an efficient and effective process to
identify and reduce waste associated with        Management stated that it is implementing comprehensive automated procedures to improve the efficiency and effec-
its expedited packaging supply program.          tiveness of its expedited packaging supplies program. SEAM (Solution for Enterprise Asset Management), a system to
                                                 improve inventory management forecasting and auto replenishing of expedited packaging supplies at Post Offices, will
                                                 be piloted beginning June 25, 2012, in the Central Plains and Western Pennsylvania Districts, with a national launch
                                                 currently scheduled for September 7, 2012.

                                                 Further, pilot testing for integrating SEAM into the Point-of-Sale (POS) System began May 4, and will be fully released
                                                 in POS in May 2012. Integrating SEAM into POS will add significant efficiency through “cycle count functionality,” which
                                                 utilizes past ordering history to generate automated replenishment orders.

                                                 In addition, management noted the specialized and customized ordering and fulfillment validation procedures have been
                                                 improved. All specialized ($50,000 minimum revenue) and customized ($250,000 minimum) orders and reorders are
                                                 now validated through PostalOne!, the Revenue, Pieces and Weights System, and/or the National Meter Accounting
                                                 & Tracking System to ensure customers qualify and are using packaging.




10                                                                                                                                        Semiannual Report to Congress
                                                                                                           IMPROVE SAFETY AND EMPLOYEE ENGAGEMENT

GOAL 3: IMPROVE SAFETY AND EMPLOYEE ENGAGEMENT
Postal Service employees are its greatest asset. A key strategy to improve productivity is to improve safety and increase
employee engagement.

Health and Safety Program
Our report determined that the Postal Service has processes in place to minimize health and safety hazards and assist
with Occupational Safety and Health Administration compliance. However, employees do not always follow these processes,
as we identified hazards and unsafe conditions at locations we visited. We also identified opportunities to improve safety
processes and procedures.

Unauthorized Overtime
The Postal Service has procedures to assist supervisors with monitoring and controlling unauthorized overtime; however, at
the 12 locations we visited during our audit, management did not always follow the prescribed procedures. Specifically, they
did not always properly complete and maintain records for employees who requested or incurred unauthorized overtime. Our
audit disclosed that some of the unauthorized overtime workhours recorded in the Time and Attendance Collection System
(TACS) may have been informally authorized by management. However, management did not track and we were unable
to segregate informally authorized overtime from the unauthorized overtime workhours recorded in TACS. As a result, we
classified the entire amount recorded in TACS as unsupported questioned costs. Lastly, we identified controls in the Central
Pennsylvania District that should be considered best practices throughout the Postal Service. These best practices include
active daily monitoring of unauthorized overtime by supervisors and active oversight by managers and the district TACS
office.

Mail Processing Allegation
In response to a congressional request, we determined that Biohazard Detection System (BDS) stop times varied on a daily
basis and that there was no evidence the P&DC manager bypassed the BDS while processing mail, as was alleged by a
Postal Service employee.


REGULATORY STUDIES AND REPORTING OBLIGATIONS
The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to conduct certain regulatory studies
and mandates a number of reporting obligations. The Postal Service uses special financial studies to attribute costs to the
various categories of mail and special services, and to develop workshare cost avoidance estimates.

 Management Operating Data System
 This audit’s objective was to            major mail processing facilities. The   procedures and use alternative              or negative) by adjusting discounts
 determine the impact Manage-             accuracy of MODS data is critical       methodologies to further minimize           or adjusting the price gaps between
 ment Operating Data System               both operationally for planning and     the effect of MODS errors. We               products in mail classes. The
 (MODS) data errors and other             tracking and for cost attribution.      analyzed the impact of alternative          monetary impact we calculated is
 excluded MODS data would have                                                    methodologies on two cost avoid-            dependent on corrective actions
 on MODS-based productivities             We determined that the Postal           ance models and estimated that              taken on MODS data quality and
 and their associated cost avoid-         Service must take additional steps      the revised workshare discounts             could be realized depending on
 ance models and the attribution of       to provide accurate mail process-       could have resulted in $86.8                management decisions regarding
 costs to products. The MODS is a         ing and cost avoidance estimates.       million in reduced workshare                product pricing made within the
 web-based application that collects      Management should focus correc-         discounts and increased revenue.            limitations of the Consumer Price
 data from the Time and Attendance        tive actions on the MODS operation                                                  Index price cap and unused rate
 Collection System (TACS) and the         numbers and facilities creating         However, management did not                 authority available at that time.
 Web End-of-Run (WebEOR). It uses         the most significant number of          agree with our calculation of mon-
 this data to report on mail volume,      errors. Additionally, management        etary impact stating it is incorrect to
 workhours, and machine usage at          could improve data quality review       claim any monetary impact (positive


Revenue, Pieces, and Weight Inputs into the Cost and Revenue Analysis Report
Our report determined that the Postal Service could significantly reduce manual data collection for revenue, pieces,
and weights estimation by modifying existing automated processes to collect mailpiece images for analysis and moving
sampling from delivery units to supporting processing plants. The Postal Service could make the hardware changes
needed with existing technology, which would benefit both operational needs and statistical sampling efforts. We esti-
mate that the Postal Service could save about $13 million in annual data collection costs. Management agreed with our
recommendations; but disagreed with our assessment of the state of automated data and the cost savings estimate.


October 1, 2011 — March 31, 2012                                                                                                                                    11
PRESERVING ACCOUNTABILITY


                            PRESERVING ACCOUNTABILITY
                            During this period we audited Postal Service financial transactions. We also assessed the accuracy of management
                            data to help preserve the integrity of Postal Service processes and personnel.

                            Financial Audits
                            The following is a summary of the financial audits performed in support of the independent public accounting firm’s
                            opinion on the Postal Service’s financial statements and internal controls over financial reporting.

                            FY 2011 Financial Statements Audits
                            These reports present the results of our audit of the financial activities and accounting records at headquarters,
                            and Eagan, St. Louis, and San Mateo Accounting Services for FY 2011. We noted that the Postal Service’s financial
                            accounting policies and procedures provide for an adequate internal control structure and comply with generally
                            accepted accounting principles. Further, accounting transactions impacting the general ledger account balances for
                            assets, liabilities, equity, income, and expenses are fairly stated, general ledger account balances conform with the
                            general classification of accounts of the Postal Service on a basis consistent with that of the previous year, and except
                            for one instance of noncompliance related to the suspension of the employer Federal Employees Retirement System
                            obligation, the Postal Service complied with laws and regulations that have a direct and material effect on the financial
                            statements taken as a whole. For these audits, we did not propose any adjustments. However, throughout the year, we
                            reviewed internal controls over financial reporting and identified various control deficiencies that we brought to manage-
                            ment’s attention at the time of discovery to assist them with their responsibility for establishing and maintaining an
                            adequate internal control structure over financial reporting.

                            FY 2011 Financial Testing Compliance Group Oversight Reviews
                            To comply with Sarbanes-Oxley Act requirements, the Postal Service must report on the effectiveness of the agency’s
                            internal controls to ensure accurate financial reporting. It must submit an annual assessment to the Postal Regulatory
                            Commission. The Postal Service established the financial testing compliance group to conduct tests of key financial
                            reporting controls. We conducted oversight reviews, at the request of the independent public accountants, to assist the
                            Postal Service in determining whether they can rely on the results from their field-level internal control testing. During
                            this reporting period, we issued 158 management advisories that concluded on whether analysts properly conducted
                            and documented their examinations of key financial reporting controls. Although significant improvements in the group’s
                            testing of key controls were made from the prior year, we did not always agree with the results of the testing. We noted
                            the group did not identify testing errors in four site reviews, did not perform steps in accordance with their program in
                            three site reviews, and did not adequately document their work in two site reviews.

                            Information Technology Security
                            We conducted this audit to assess the Postal Service‘s current state of information technology (IT) security. A suc-
                            cessful IT security program ensures the confidentiality, integrity, and availability of critical information resources. We
                            found that Corporate Information Security has made progress to enhance and execute the Postal Service‘s information
                            security program. However, we identified ongoing challenges and areas where management should strengthen security
                            controls surrounding critical information resources to support the organization‘s information security goals and prevent
                            damage to the Postal Service brand.

                            Bad Check Prevention and Collection
                            Our audit determined that the Postal Service’s policies and procedures to prevent and collect bad checks were effective
                            and efficient. In FY 2011, the Postal Service collected about 69 percent of bad check debt, and bad checks repre-
                            sented 0.14 percent of retail check payments. In addition, we determined that the collection process for bad checks
                            was cost effective, and that staffing to process and collect bad checks decreased concurrently with bad check volume.

                            International Air Mail Records Units
                            Los Angeles International Service Center
                            The Los Angeles International Service Center (ISC) records unit generally processed international mail transactions to
                            ensure that the St. Louis accounting branch was able to timely bill foreign postal administrations. However, the records
                            unit did not maintain supporting documentation, such as manifests or verification notes, to help ensure accurate billing.
                            Also, the records unit did not always perform a complete weekly audit of verification notes, and management did not
                            always perform a complete review of System for International Revenue and Volume, Inbound (SIRVI) test data, used in
                            the billing to and collection of payments made by foreign postal administrations for the delivery of foreign mail, or review




12                                                                                                                  Semiannual Report to Congress
                                                                                                                               PRESERVING ACCOUNTABILITY

and approve SIRVI tests daily. Such reviews and approvals are necessary to
ensure that country-specific volume estimates used to determine the terminal
dues paid to the Postal Service for the delivery of foreign country incoming mail
are correct.

J.T. Weeker (Chicago) ISC
The J.T. Weeker ISC records unit generally processed international mail trans-
actions timely and accurately to ensure that the St. Louis accounting branch
correctly and timely billed the foreign postal administrations. However, system
access safeguards could be improved. Also, we found a records unit clerk did
not modify a letter post dispatch record when the unit later received supporting
documentation from the San Francisco ISC to support a greater weight for
the dispatch.

New York ISC
The New York ISC records unit processed international mail transactions to
ensure that the St. Louis accounting branch billed foreign postal administra-
tions timely. However, management did not always completely review SIRVI test
data. Additionally, system access safeguards could be improved.

Travel and Other Expenses
We assessed whether the travel and miscellaneous expenses (including exter-                                                                                    Photo by Michael Zara
nal professional fees) of the Board of Governors were properly supported, reasonable, and in compliance with Postal
Service policies and procedures and board policies. We also assessed whether travel and representation expenses             Mail that is destined for or coming from
claimed by Postal Service officers were properly supported and in compliance with policies and procedures. We found         foreign countries is handled through one of
that these expenses for the Board of Governors were properly supported, reasonable, and in compliance with Postal           the Postal Service’s International Service
                                                                                                                            Centers located at airports in five major
Service and board policies. However, Postal Service officers did not always comply with the guidelines when claiming        cities. Proper supporting documentation
expenses incurred during official travel and for representation. We reviewed 68 of 972 reimbursements and found             is essential to ensure the Postal Service
17 issues regarding reimbursement claims, international travel approval letters, travel deviation requests, alcohol         accurately bills and collects payments
purchases, and parking fees. These instances did not materially affect the overall financial statements. In response to     from foreign postal administrations
our findings, management stated that they will select a permanent accountant with appropriate training to advise the        for delivery of cross-border mail.
officers and their administrative assistants on the revised guidelines by September 2012.


RISK ANALYSIS RESEARCH CENTER
Budget Scoring and Postal Service
By law, the Postal Service’s finances are separate from the rest of the federal budget, but efforts to solve the Postal
Service’s financial problems continue to be caught up in budget scoring considerations. Budget scoring is a required
procedure that evaluates proposed legislation for its effect on the federal deficit. It is part of the broader budget
enforcement process. For example, budget scoring is making it difficult to enact legislation to fix the recognized over-
funding of the Postal Service’s Federal Employees’ Retirement System (FERS) obligations.

                                      The Postal Service Office of Inspector General (OIG) explored these obstacles in
                                      an August 2009 white paper entitled Federal Budget Treatment of the Postal
                                      Service. In a white paper released in February 2012, Budget Enforcement
                                      Procedures and the Postal Service, the OIG updated budget events since the 2009
                                      paper, which had laid out the limited advantages conferred by the way the Postal
                                      Service’s off-budget status is implemented. The new paper provides a detailed
                                      description of the federal budget process and argues that until Postal Service
                                      finances and the federal budget can be disentangled, it is important for the Postal
                                      Service and its stakeholders to understand the current budget landscape and its
                                      potential to affect comprehensive postal reform.




October 1, 2011 — March 31, 2012                                                                                                                                      13
PRESERVING ACCOUNTABILITY


                                     eMailbox and eLockbox
                                     Digital media and technologies continue to offer both new challenges to physical mail and important potential areas of
                                     growth for the Postal Service. A Postal Service-sponsored, secure e-mail service (“eMailbox”) and an accompanying
                                     secure data storage service (“eLockbox”) would provide new options to residential customers and businesses, while
                                     leveraging key address management tools and other assets of the Postal Service. The Postal Service could offer an
                                     eMailbox that links a current physical address to a permanent electronic address for every individual or business. This
                                     eMailbox could be the cornerstone of a secure and confidential communications network that would be accessible to
                                     users anytime, anywhere through a personal computer, tablet, or smartphone.

                                     Under this concept, users’ postal e-mail addresses and physical addresses would be linked, utilizing current Postal
                                     Service assets, including the Address Management System (AMS) and National Change of Address (NCOA) System
                                     databases. This linkage would let consumers decide whether to receive their mail digitally or physically. It would also
                                     strengthen the Postal Service’s role as a bridge between the digital and physical worlds. Users would be validated
                                     under a multifactor authentication process, their data held confidentially, and privacy maintained.

                                                                               The eMailbox could also support new digital commercial and government
                                                                               services. An eLockbox could offer related digital storage, including storage
                                                                               of legal documents, medical records, and other personal records, as well as
                                                                               sentimental photographs and multimedia files.

                                                                               The paper eMailbox and eLockbox: Opportunities for the Postal Service sug-
                                                                               gests that the Postal Service must engage quickly and proactively to adapt to
                                                                               new technologies and commensurate new market conditions. Together, these
                                                                               two services could provide a sound base for other applications on a secure
                                                                               postal platform and would help maintain and expand the Postal Service’s
                                                                               reputation as a trusted third party entity and facilitator of communication,
                                                                               whether digital or physical.




 Risk Analysis Research Center
 The OIG’s Risk Analysis Research Center (RARC)    community. The RARC research group has three           Postal Service, the federal budget and the
 conducts in-depth research and analysis about     separate teams, Mission Operations, Support            Postal Service, and a series of papers on
 postal issues. The group also conducts economic   Operations, and Financial Operations. Some of          the Postal Service’s role in the digital age.
 and academic studies as well as coordinates       the issues covered in RARC whitepapers have
 guest lectures by experts in the postal           included the cost and revenue structures of the




14                                                                                                                           Semiannual Report to Congress
                                                                                                                              PRESERVING ACCOUNTABILITY

                                        Postal Service Revenue: Structure, Facts, and Future Possibilities
                                        The Postal Service’s future financial health depends on its ability to cut costs
                                        and generate sufficient revenue to support its operations. In the past, volume
                                        growth paid for expansion of the delivery network. This is no longer true. Now,
                                        new digital technologies are transforming the communications marketplace by
                                        delivering information instantaneously, regardless of distance, at a lower cost.
                                        Because of this profound change, postal services operate in a new business
                                        environment that simultaneously threatens traditional mail segments and cre-
                                        ates novel opportunities. Equally challenging, the economic recession triggered
                                        decreases in spending and declines in mail volume as mailers, looking to cut
                                        costs and increase time responsiveness, accelerated their transition to elec-
                                        tronic delivery alternatives.

In the context of this very difficult financial situation, the white paper, Postal Service Revenue: Structure, Facts, and
Future Possibilities, analyzed the major components of the Postal Service’s revenue structure in fiscal year (FY) 2010
as well as substantive product, business segment, and customer trends. One key finding is that the Postal Service’s
main product lines — First-Class Single Piece, First-Class Workshare, Standard Regular, and Standard Enhanced Car-
rier Route (ECR) — provided 75 percent of revenue, 94 percent of volume, and 86 percent of contribution in FY 2010.
Also, we noted that advertising mail is a strong, potentially significant growth opportunity.

The paper also highlighted that although the Postal Service infrastructure serves the entire nation, large business mail-
ers generate the majority of revenue. Despite encouraging growth, the Expedited and Package Services (EPS) segment
contains strong competitors with significant market power. The Postal Service earned 15 percent of its revenue from
these categories in FY 2010. Thus, even with robust growth, it is extremely unlikely that EPS revenue could offset the
projected declines in First-Class Mail (FCM).

Finally, most foreign posts view diversification as necessary to survival and derive at least 40 percent of their revenue
outside the traditional hard-copy mail business. The Postal Service has a less diversified portfolio with only about 13
percent of its revenue from non-mail sources. Our analysis suggests that in the long term, the Postal Service must
have the flexibility to reduce costs and increase revenue or risk greatly narrowing the scope of self-funded, hard-copy
universal service for the American people.
                                                                                                                            Many foreign posts have diversified
                                                                                                                            their offerings beyond mail services
                                                                                                                            and now derive at least 40 percent of
                                                                                                                            their revenue from outside the tra-
                                                                                                                            ditional hard-copy mail business.




October 1, 2011 — March 31, 2012                                                                                                                                    15
Office of

Investigations
                                                                                                OFFICE OF INVESTIGATIONS




                                                         The Postal Service relies on the investigative efforts
                                                         of the Office of Investigations’ special agents.




To protect the mail and to ensure the integrity of postal processes, finances, and personnel,
the Postal Service relies on the investigative efforts of the Office of Investigations’ (OI)
special agents. These special agents are stationed in offices nationwide. Their charge is
to investigate allegations of internal crimes and frauds committed by postal employees
and contractors against the Postal Service and employee misconduct. Following is work
conducted by the OI during this reporting period that contributed to safeguarding the Postal
Service’s revenue and assets and helped deter postal crimes, ultimately helping to maintain
a stable and sound Postal Service.




October 1, 2011 — March 31, 2012                                                                                      17
FINANCIAL CRIMES


                   FINANCIAL CRIMES
                   A portion of the $66 billion in revenue generated by the Postal Service last year is handled at the 32,000 postal retail
                   locations. Employees who allegedly embezzle funds, kite or otherwise misuse money orders, or steal and misuse
                   postal-issued credit cards receive investigative attention from our special agents.

                    A former New York lead sales and service associate was sentenced in November 2011 after pleading guilty in federal
                      court to misappropriation of funds and obstruction of justice. The sales associate was sentenced to serve 12 months
                      of home confinement and ordered to pay about $187,000 in restitution to the Postal Service. In January 2009, OIG
                      agents investigated irregularities in stamp stock shortages in a New York Post Office and concluded that the sales
                      associate performed fraudulent refunds on legitimate register transactions for stamp purchases. The associate
                      also falsified and destroyed documents to disguise the thefts from the Postal Service register. During an interview,
                      the associate admitted to stealing approximately $100,000 in Postal Service funds by performing fictitious stamp
                      refunds. As a result of the investigation, the Postal Service terminated the sales associate in April 2009.

                    The OIG initiated an investigation into suspicious Postal Service Voyager credit card transactions at a Pennsylvania
                      Post Office location, after being advised that excessive charges were discovered while reconciling Voyager card
                      expenses. The reconciliation showed that the suspicious charges occurred at one particular service station that
                      performed routine maintenance on the Postal Service vehicles. The investigation revealed that a Postal Service
                      supervisor allowed the service station to physically retain the Voyager card for over a year and during that time at
                      least two station employees conducted 48 fraudulent transactions totaling $21,171. Both service station employees
                      admitted to the fraudulent use of the Voyager card and in October 2011 and November 2011, respectively, the two
                      service station employees pled guilty to one count of theft by deception and one count of criminal conspiracy to theft
                      by deception. The employees were sentenced to a maximum of 23 months home confinement, 2 years’ probation,
                      and $21,912 in restitution. In February 2011, the Postal Service Vehicle operations management assistant received
                      a 7-day suspension for failing to properly reconcile Voyager card statements. In May 2011, the supervisor was issued
                      a 7-day suspension for leaving a Postal Service Voyager Card at the service station.

                    A highway contract route (HCR) supervisor in New Jersey was sentenced to 5 years of probation and ordered to pay
                      $365,416 in restitution to the Postal Service for theft of government property and aiding and abetting in October
                      2011. Another HCR employee involved in the same scheme was previously sentenced in August 2011 to 5 years of
                      probation and ordered to pay $335,972 in restitution. The OIG launched the investigation predicated on information
                      it received on the contractor purchasing 17,251 gallons of fuel above the authorized amount in the contract. The
                      OIG conducted surveillance and determined that one of the contractors used several Voyager cards at gas stations
                      near his home to purchase fuel for his personal benefit. The employee admitted to using Voyager cards to make
                      numerous unauthorized purchases of fuel for his personal use, sale to other persons at a discounted price, and for
                      a towing business. As part of the scheme, the employee installed a large rubber bladder in his personal truck which
                      held about 100 gallons of fuel. The employee informed the OIG that he had an agreement with his supervisor to pur-
                      chase and resell large amounts of fuel utilizing the Voyager cards. The employee recorded consensually monitored
                      conversations he had with the supervisor for the OIG. The supervisor eventually admitted to using Voyager cards
                      to make numerous unauthorized purchases of fuel and purchases of cartons of cigarettes for his personal use, as
                      well as affirming that he allowed the employee to use the Voyager cards for personal gain. The supervisor received
                      thousands of dollars in cash payments and services from the employee.

                    A New Jersey postmaster devised a scheme to embezzle Postal Service funds by offsetting the daily bank deposit
                      with erroneous invoices for local transportation and office and custodial supplies. The postmaster used the funds
                      to purchase money orders, which were used to pay personal expenses. On September 30, 2010, the postmaster
                      resigned from the Postal Service, while under investigation. A year later, the former New Jersey postmaster pled
                      guilty in federal court to misappropriation of Postal Service funds and was sentenced to 6 months of home confine-
                      ment, 4 years of probation and ordered to pay about $69,000 in restitution to the Postal Service.




18                                                                                                        Semiannual Report to Congress
                                                                                                                                               FINANCIAL CRIMES

 A former California sales and service associate (SSA) was convicted in October
   2011, on one count of theft of public money and seven counts of passing
   counterfeit U.S. obligations, following a 3-day federal jury trial. During the
   investigation, which was conducted jointly with the U.S. Secret Service, the sales
   associate was observed on several occasions sorting, separating, and switching
   what appeared to be $100 bills from his cash drawer. Additionally, the associate
   was observed on several occasions placing a “window closed” sign on his coun-
   ter, then proceeding to print Postal Service money orders without any customers
   present. The SSA issued and cashed the money orders in his name. In June
   2011, the Postal Service issued the sales associate letters of demand (an invoice
   for the amount owed) totaling about $45,200, which was followed by an issu-
   ance of a Notice of Removal in August 2011. After the associate’s arrest in
   April 2011, the U.S. Secret Service seized and forfeited two of his luxury sports
   utility vehicles.
                                                                                                                             A sales associate was observed sorting,
                                                                                                                             separating and switching what appeared
 An OIG investigation determined that a postal manager in New York created fraudulent cleaning service invoices and        to be $100 bills from his cash drawer
   submitted them to the Postal Service, resulting in check disbursements that the postal manager intercepted and            and printing Postal Service money orders
   cashed. The postal manager also stole third-party customer checks from the mail and inappropriately cashed them           without any customers present and a
   for personal use. OIG agents determined that the postal manager stole about $227,000, over a 3-year period. The           “window closed” sign at his counter. A
                                                                                                                             joint OIG-U.S. Secret Service investigation
   postal manager admitted he intercepted and cashed Postal Service customer checks and also created fraudulent              determined the associate had issued and
   custodial cleaning services invoices, submitted them to the Postal Service for payment, then cashing the checks to        cashed the money orders in his own name.
   use on personal expenses. As a result of the investigation, the postal manager resigned from the Postal Service in
   November 2010. A year later, the former New York postal manager pled guilty in federal court to misappropriation of
   Postal Service funds. Sentencing is pending.

 OIG agents investigated the source of irregularities in a Postal Service money order reconciliation report for a
   Maine Post Office and determined the sales and service associate embezzled $35,518, by inappropriately altering
   and cashing Postal Service money orders for personal use. During an interview with the OIG, the sales associate
   admitted he used a Postal Service money order scheme to steal Postal Service funds to pay off his personal credit
   cards and a car loan. As a result of the investigation, the Postal Service terminated the sales associate in August
   2010. In November 2011, the former associate pled guilty in federal court to one count of misappropriation of
   funds and was sentenced in February 2012, to serve 45 days in prison, a year of probation, and pay approximately
   $18,130 in restitution. 

 An investigation by the OIG into an Oregon postmaster relief led to a guilty plea in December 2011. The former
   Oregon employee pled guilty in the Circuit Court of the State of Oregon to two counts of theft in the first degree. The
   former employee was sentenced to 24 months supervised probation, 3 days incarceration, and $6,379 in restitution
   to the Postal Service for kiting Postal Service money orders to conceal her embezzlement of Postal Service funds
   through the issuance of money orders without remittance. The former employee admitted to embezzling Postal
   Service funds and kiting money orders. She resigned in lieu of removal due to the OIG investigation.

 In December 2011, a former Missouri officer in charge pled guilty to four counts of embezzlement of money orders
   and was sentenced to 5 years of probation and ordered to pay about $11,200 in restitution to the Postal Service. The
   investigation revealed the employee kited 155 postal money orders in the amount of about $52,500. The employee
   admitted using postal funds to pay vendors at a restaurant she operated with her son. The Postal Service removed
   the worker in March 2011.

 A sales and service associate in Puerto Rico pled guilty in March 2012 in federal court to one count of embezzlement
   of postal funds. He was sentenced to serve 24 months of probation and ordered to pay $6,436 in restitution to the
   Postal Service. The investigation determined that the sales associate improperly voided about $6,436 in valid retail
   merchandise and stamp sale transactions in Postal Service registers to steal money for his personal use. The associ-
   ate admitted he voided legitimate register transactions to help make up for cash drawer shortages.




October 1, 2011 — March 31, 2012                                                                                                                                     19
HEALTHCARE FRAUD

                                            HEALTHCARE FRAUD
                                            The monetary and medical benefits paid by the Postal Service to workers’ compensation claimants (employees who
                                            sustained job-related injuries) in FY 2011 totaled more than $1.3 billion and its estimated total liability for future work-
                                            ers’ compensation costs is more than $15.1 billion. Administered by the U.S. Department of Labor (DOL), the Office
                                            of Workers’ Compensation Programs (OWCP) provides direct compensation to providers, claimants, and beneficiaries.
                                            The Postal Service later reimburses the OWCP in a process known as “charge-back billings.” Investigative efforts
                                            during this reporting period resulted in more than $84 million in cost savings or avoidances, 13 arrests, and 73 admin-
Workers’ Compensation
                                            istrative personnel actions, including removals and suspensions and termination of benefits.
Fraud Investigative Results
October 1, 2011 —                            A former Ohio letter carrier was sentenced in January 2012 to 366 days of imprisonment, followed by 2 years of
March 31, 2012                                 supervised release, and ordered to pay $71,887 in restitution to the DOL. The investigation determined the former
                                               letter carrier misrepresented her physical condition to her treating physician and DOL OWCP officials. OIG agents
 388 fraud investigations resolved           observed the letter carrier engaging in activities exceeding her reported physical limitations. The former letter car-
 $84 million in compensa-                    rier failed to fully disclose her self-employment, owning and operating an alpaca farm and a cosmetics business.
     tion payments avoided                     In March 2009, OIG agents conducted surveillance of the employee on a 7-day Caribbean cruise, where she was
 13 arrests                                  observed gambling for hours, riding a motor scooter, walking long distances, sitting for long periods, carrying heavy
 18 indictments                              suitcases, and other activities. Pursuant to the criminal conviction, the DOL terminated the former letter carrier’s
 16 convictions                              workers compensation benefits, resulting in a cost savings to the Postal Service of about $1,000,000.
 73 personnel actions
     taken by management                     An OIG investigation determined that a former Michigan letter carrier was involved in a workers’ compensation
                                               health care fraud scheme and the theft of a Voyager card. In December 2011, the letter carrier pled guilty in federal
                                               court to making false statements to obtain federal workers’ compensation benefits and was sentenced to 3 years
                                               of probation and ordered to pay approximately $14,000 in restitution. Investigators determined the letter carrier’s
                                               Voyager card-personal identification number was used on 17 occasions for gas purchases totaling more than $600.
                                               An interview with the letter carrier’s treating physician revealed medical documents and forms provided to the Postal
                                               Service and DOL, with the doctor’s signature, were fraudulent and were not prepared by the physician. During an
                                               interview with OIG agents, the letter carrier admitted she stole the Voyager card on her last day of work and used the
                                               card to purchase fuel for her personal vehicle. The letter carrier admitted she created medical documents and forged
                                               the doctor’s signature, which resulted in the employee receiving $12,852 in fraudulent benefits.

                                             An investigation revealed that a former Michigan letter carrier filed four workers’ compensation claims regarding
                                               alleged injuries to her neck and shoulder. The investigation determined the former letter carrier was working in
                                               a family charter fishing business while claiming to be totally disabled. OIG agents observed the former employee
                                               exceeding her physical restrictions while working on a fishing expedition. The former letter carrier admitted to
                                               her role in a workers’ compensation fraud scheme. As a result of the investigation, DOL terminated her workers’
                                               compensation benefits, yielding a cost avoidance of more than $695,000. In February 2012, the letter carrier was
                                               sentenced in federal court to 12 months of probation and ordered to pay $14,625 in restitution.

                                             The OIG closed out its investigation of an Illinois mail processing clerk in December 2011 after the clerk pled guilty
                                               and was sentenced in federal court to one count of theft of government funds following an OIG investigation into a
                                               fraudulent workers’ compensation claim. The clerk was sentenced to 5 years of probation, 6 months home confine-
                                               ment, 500 hours community service, and ordered to pay $101,178 in restitution. An OIG investigation determined
                                               the clerk submitted inflated and fraudulent medical travel refund requests for mileage reimbursements to DOL. Dur-
                                               ing an interview with the OIG, the clerk admitted she submitted false travel reimbursements to DOL for about 1 year.
An OIG investigation determined that
a former employee who had filed four
                                               In September 2011, the DOL terminated the clerk’s workers’ compensation benefits resulting in $898,598 in cost
workers’ compensation claims was work-         avoidance. The Postal Service terminated the clerk’s employment in February 2011.
ing in a family charter fishing business
while claiming to be totally disabled.       A former California clerk was arrested and pled guilty in federal court in October 2011 to making a false mate-
The former employee admitted to her            rial statement in an insurance claim involving workers’ compensation. The clerk received a sentence of 1 year in
role in a workers’ compensation fraud
scheme and was sentenced to 12 months          prison, 3 years of supervised release, and was ordered to pay about $80,000 in restitution. The OIG investigation
probation and ordered to pay restitution.      determined the clerk filed a fraudulent claim for allegedly suffering a neck and shoulder injury while on duty, which
                                               allowed her to receive workers’ compensation benefits. OIG agents observed the clerk exceeding her medical restric-
                                               tions by riding and caring for her horses, to include brushing and saddling. In November 2007, the Postal Service
                                               terminated the clerk’s employment. A year later, the DOL terminated the employee’s workers’ compensation benefits
                                               and the Postal Service realized a cost avoidance in excess of $630,000.




20                                                                                                                                   Semiannual Report to Congress
                                                                                                                                                         MAIL THEFT

 The State of Florida Circuit Court sentenced, in February 2011, a Florida rural carrier associate to 2 days in jail and
   1 year probation, and ordered him to pay $11,362 in restitution, after he was found guilty of one count of attempted
   workers’ compensation fraud. The carrier alleged total disability from a work-related injury; however, the investigation
   determined the carrier was employed as a newspaper delivery person and as a bank teller. In June 2011, the DOL
   removed the rural carrier associate from the periodic roll, realizing a cost avoidance of more than $450,000 for the
   Postal Service. The carrier later resigned from the Postal Service.


MAIL THEFT
Special agents investigate allegations of postal employees delaying, destroying, or stealing mail. Investigations of sus-
pected employees are referred to prosecutors or to management for administrative action.

 This OIG opened the investigation of an Illinois letter carrier after receiving a complaint from a citizen that someone
   established a bank checking account through identity theft. The investigation revealed that merchandise fraudulently
   purchased with a debit card linked to the unauthorized checking account was mailed to the letter carrier’s residence.
   The carrier admitted stealing the bank debit card and pin number addressed to the complainant and using it to pur-
   chase merchandise from various retailers. The carrier also accepted responsibility for stealing U.S. Treasury Checks
   totaling $2,798 and one check issued by the State of Illinois Comptroller’s Office in the amount of $1,016. The
   carrier resigned from the Postal Service during the investigation. In November 2011, the former letter carrier was
   sentenced in federal court to 21 months imprisonment followed by 3 years’ supervised release, and ordered by the
   court to pay restitution in the amount of $37,363.
                                                                                                                              Employees who attempt to defraud the
 In January 2012, the State of Indiana Superior Court sentenced an Indiana sales and service associate to 10 years          workers’ compensation program are
   imprisonment and placed him on supervised probation for 545 days following a 2-year home detention period. In              criminally prosecuted. This former clerk
   September 2011, the sales associate pled guilty to dealing a controlled substance and official misconduct. The OIG         was arrested and pled guilty in federal
                                                                                                                              court to making false material statements
   received approximately 17 complaints from military veterans reporting the Postal Service failed to deliver shipments
                                                                                                                              in an insurance claim involving workers’
   of pain medication mailed to them by the Department of Veterans Affairs (VA). OIG agents observed the sales                compensation. The former employee was
   associate open two parcels containing medication from the VA. OIG agents searched the associate and discovered             seen riding and caring for horses, which
   medicine bottles and the packaging for the two parcels on his person. A search of the associate’s work locker and          exceeded her medical restrictions.
   residence resulted in the recovery of additional VA parcels and prescription bottles belonging to other VA patients.
   Further investigation determined the sales associate was selling the stolen pain medication. The Postal Service
   terminated the sales associate in April 2011.

 A Washington flex carrier stole prescription narcotics from the mail, an OIG investigation disclosed. The OIG observed     Special agents investigate allegations
   the flex carrier stealing a U.S. Department of Veterans Affairs pharmaceutical package from a Postal Service safe.         of postal employees stealing mail. In
                                                                                                                              this case, an OIG agent observed an
   During an interview with OIG agents, the employee confessed to stealing at least 20 parcels containing prescription
                                                                                                                              employee enter the mail accountable
   narcotic Hydrocodone. As a result of the investigation, the flex carrier resigned from the Postal Service in April 2011.   cage and steal a Department of Veterans
   In December 2011, the flex carrier was sentenced in federal court to 2 years of supervised release, 3 months of            Affairs (VA) prescription medication
   home confinement, and 150 hours of community service.                                                                      package. The employee admitted he
                                                                                                                              stole VA packages for about a year.
 In November 2011, a Washington custodian was sentenced in federal court to 7 days in federal custody, 3 years of
   supervised release, 90 days of home confinement, 120 hours of community service, and ordered to pay restitution
   of $5,685. During the investigation, OIG agents recovered 766 First-Class Mail greeting cards that were stolen from
   the mail and rifled in the custodian’s home. During an interview with OIG agents, the employee admitted to the thefts
   from the Post Office. As a result of the investigation, the Postal Service terminated the custodian in April 2010.

 The loss of eight prescription medication packages from the Post Office in January 2010 prompted an OIG inves-
   tigation, in which an OIG agent observed an employee enter the Postal Service accountable cage and steal a VA
   package. During an interview, the letter carrier admitted he stole VA medication packages for about a year. As a
   result of the OIG investigation, the employee resigned from the Postal Service in May 2011. The former Idaho let-
   ter carrier pled guilty in federal court to mail theft and was sentenced in January 2012 to 2 years of probation and
   ordered to pay a $3,000 fine and approximately $255 in restitution.




October 1, 2011 — March 31, 2012                                                                                                                                        21
OFFICIAL MISCONDUCT


                         An Oregon letter carrier was sentenced in federal court in November 2011 to 5 month’s home detention, 60 months
                           of probation, and ordered to pay restitution. The letter carrier previously pled guilty to one count of mail theft. An
                           investigation by the OIG and an Oregon Police Department determined the carrier stole large volumes of First-Class
                           Mail and parcels instead of delivering them to Postal Service customers. During the interview with OIG and local
                           police officers, the carrier admitted to opening many of the mail pieces and removing much of the contents in search
                           of cash and gift cards. Additionally, the carrier admitted to discarding large amounts of mail and failing to deliver sig-
                           nificant amounts of bulk business mail. A search of the letter carrier’s residence uncovered more than 465 pieces of
                           First Class Mail, and about 25 U.S. Mail tubs filled with bulk business mail, as well as 127 empty mail tubs. As result
                           of the investigation, the letter carrier retired from the Postal Service in January 2011.

                         OIG agents, working with the Federal Bureau of Investigation (FBI) and the Internal Revenue Service-Criminal
                           Investigations Division (IRS-CID), determined that a New York letter carrier was engaged in a federal tax return
                           scheme, filing false taxes and having the IRS mail tax refund checks to addresses along his assigned mail route.
During this reporting      The letter carrier then stole and cashed the checks for personal use. As a result of the investigation, the Postal Ser-
                           vice removed the letter carrier in August 2010. In December 2011, he was found guilty in federal court of conspiracy
period, we conducted       to defraud the United States and conspiracy to steal and receive stolen mail matter. The former letter carrier received
                           a sentence of 3 years in prison, 3 years of probation, and was ordered to pay about $2.4 million in restitution for his
69 contract fraud          involvement in a fraudulent tax return scheme.
investigations,          In April 2011, the OIG, as part of a multi-agency taskforce with the FBI and IRS-CID, began investigating a New York
resulting in four          letter carrier involved in a conspiracy to obtain U.S. Treasury checks that were to be mailed and addressed to various
                           individuals in Jamaica, New York. In August of that year, the letter carrier was arrested for providing U.S. Treasury
arrests and more           checks to a co-conspirator as part of an ongoing scheme involving the fraudulent use of Social Security numbers to
                           submit false federal tax returns and obtain tax refunds via the mail. The letter carrier admitted his involvement in
than $44 million in        the scheme and resigned from the Postal Service in December 2011. The next month, the former letter carrier pled
                           guilty in federal court to conspiracy to defraud the government and theft of mail by employee.
monetary benefits to
the Postal Service.     OFFICIAL MISCONDUCT
                        Postal Service employees commit misconduct when they:

                         Misuse Postal Service computers.
                         Destroy or steal postal property.
                         Lie or forge signatures on official documents.
                         Steal funds.
                         Abuse authority.
                         Sabotage operations.
                         Use narcotics or sell drugs while on duty.
                         Abuse alcohol while on duty.

                        During this reporting period special agents investigated 335 cases of employees suspected of selling, possessing, or
                        using illegal drugs on duty; made 18 arrests; and the Postal Service took 239 administrative personnel actions.




22                                                                                                               Semiannual Report to Congress
                                                                                                                                               CONTRACT FRAUD


CONTRACT FRAUD
The Postal Service manages contracts, ranging from multimillion dollar national contracts for services such as trans-
portation networks and IT infrastructures to local contracts for supplies and services at individual postal facilities.
The OIG aids the Postal Service by investigating allegations of contract fraud, waste, and misconduct. When contract
improprieties are documented, special agents present the evidence for criminal and civil prosecution and administrative
remedies. During this reporting period, we conducted 69 contract fraud investigations, resulting in four arrests and
more than $44 million in monetary benefits to the Postal Service.

The Postal Service Facilities Real Estate and Assets Office issued a letter of demand to a contractor in December
2011, ordering a repayment of $96,876. The contractor leased space from Postal Service for a cellular telephone
tower on the roof of a postal facility. The contractor subcontracts with various cellular telephone providers, including
Sprint/Nextel, for their equipment installation and use of the tower. The lease with the contractor, initiated about 10
years earlier, required the individual subcontracting cellular telephone companies to pay for their own power and man-
dated they install an electric meter to measure and account for their power usage. Sprint/Nextel installed equipment
on the Postal Service roof in October 2001; however, they did not install a meter to measure electricity used to power
their equipment until June 2010. As a result, in conflict with the lease, Postal Service paid for Sprint/Nextel’s electric-
ity usage during that time. A Postal Service manager negotiated with the contractor; however, a settlement could not
be reached. The OIG investigation assessed the estimated charge for the electricity used by Sprint/Nextel during this
period as $50,502. According to the contract, late charges are assessed a fee of 1.5% interest monthly, compounded
daily. The additional interest charges amounted to $46,374, for a total of $96,876.




 Major Fraud Investigations Division
                                                         The president of a private mailing company was         president of the mailing company and one addi-
                                                         sentenced in September 2011 to 51 month’s              tional employee, along with the postal customer
                                                         incarceration, 3 years supervised release, and         service supervisor and the postmaster, were
                                                         ordered to pay restitution to the Postal Service.      prosecuted in federal court. In June 2011, the
                                                         An OIG investigation determined that between           mailing company employee was sentenced to 3
                                                         January 2005 and December 2006, a postal               years of probation, 80 hours community service,
                                                         mailer devised a scheme to defraud the Postal          and ordered to pay restitution. That same month,
                                                         Service. The mailer directed and submitted             the customer service supervisor was sentenced
                                                         numerous fraudulent postage statements for             to one count of bribery and received 2 years of
                                                         Standard Mail, indicating that a certain number        probation and 60 hours community service. Also
                                                         of pre-cancelled stamps were used in mailings          in June, a jury found the postmaster guilty of
                                                         when the mailer knew it to be false. The mailer        bribery and accepting a gratuity. In August 2011,
                                                         paid a Missouri postmaster a bribe with checks         the postmaster was sentenced to 24 months in
                                                         totaling $20,000 and paid a postal customer            prison and 1 year of supervised release. This
                                                         service supervisor a separate bribe of $10,000         case, which the OIG officially closed on February
                                                         in cash. The loss of revenue to the Postal Service     22, 2012, resulted in an approximate total of
                                                         from the scheme to defraud was estimated               $3,894,630 in restitution to the Postal Service.
                                                         to be between $2 million and $4 million. The




October 1, 2011 — March 31, 2012                                                                                                                                    23
Appendices
                                                                                                                                                   APPENDIX A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related
to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period October 1, 2011— March 31, 2012

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory (MA) reports in accordance with the identified needs of the project.



Summary
                                                                                                                         Unsupported
Strategic Goals                     Number of Reports      Funds Put to Better Use        Questioned Costs           Questioned Costs             Revenue Impact
Improve Service                                      7                         —                 $1,115,430                 $1,115,430                $10,310,906
Improve Financial Performance                       20              $919,304,263                $27,304,758                         —                 $8,256,408
Improve Safety and Employee                          4                         —               $717,473,875               $717,473,875                            —
Engagement
Regulatory Studies and Reporting                     2               $127,880,195                        —                          —                $86,490,944
Obligations
Preserving Accountability                           31                         —                $31,489,181               $30,902,002                             —
SUB-TOTAL                                           64             $1,047,184,458             $777,383,244               $749,491,307               $105,058,258
PARIS Risk Model Reports                            30                         —                         —                          —                             —
TOTAL                                               94             $1,047,184,458             $777,383,244               $749,491,307               $105,058,258




October 1, 2011 — March 31, 2012                                                                                                                           25
APPENDIX A




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.
   Unsupported Questioned Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.
   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.
   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In
   addition, this category includes increased revenue from existing functions and generating revenue from new sources.
   PARIS Risk Models. Performance and Results Information Systems (PARIS) models with data visualization techniques. These models identify operational
   and financial risks, and enable OA staff to conduct reviews of Postal Service functions on a nationwide basis, while also identifying areas of emerging risk
   — fundamentally changing the way the OIG examines and monitors risk. We present quarterly summary results and trend analyses of these risk models to
   key Postal Service executives and stakeholders.




Reports with Quantifiable Potential Monetary Benefits
                                                                                       Funds Put                             Unsupported
                                                                                    to Better Use    Questioned Costs    Questioned Costs         Revenue Impact
IMPROVE SERVICE
Marketing and Service
Mail Verification Procedures at Detached Mail Units; MS-AR-12-002; 1/12/2012                   —                   —                     —             $10,310,906
Supply Management
Contract Delivery Service Cost Controls in the Suncoast District; CA-MA-12-001;                —            $1,115,430           $1,115,430                       —
2/27/2012
IMPROVE FINANCIAL PERFORMANCE
Marketing and Service
Inbound International Parcel Mail; MS-AR-12-001; 11/23/2011                                    —                   —                     —             $8,256,408
Supply Management
Contracting Opportunities and Impact of the Service Contract Act; CA-AR-12-001;      $675,043,634                  —                     —                        —
11/2/2011
Transportation
Density of First-Class Mail on Air Transportation; NL-AR-12-003; 3/12/2012           $239,902,579          $27,304,758                   —                        —
Postal Vehicle Service Transportation Routes – Margaret L. Sellers Processing and      $4,358,050                  —                     —                        —
Distribution Center; NL-AR-12-001; 2/2/2012
IMPROVE SAFETY AND EMPLOYEE ENGAGEMENT
Human Resources and Security
Unauthorized Overtime Usage in Field Operations; HR-AR-12-003; 3/30/2012                       —          $717,473,875         $717,473,875                       —
REGULATORY STUDIES AND REPORTING OBLIGATIONS
Cost, Pricing, and Rates
Management Operating Data System; CRR-AR-12-002; 12/13/2011                                    —                   —                     —            $86,490,944
Revenue, Pieces, and Weight Inputs Into the Cost and Revenue Analysis Report;         $127,880,195                 —                     —                        —
CRR-AR-12-003; 1/27/2012
PRESERVING ACCOUNTABILITY
Financial
Bad Check Prevention and Collection; FI-AR-12-002; 1/10/2012                                   —              $577,115                   —                        —




    26                                                                                                                           Semiannual Report to Congress
                                                                                                                                                                 APPENDIX A




                                                                                             Funds Put                                   Unsupported
                                                                                          to Better Use      Questioned Costs        Questioned Costs        Revenue Impact
Financial Reporting
Fiscal Year 2011 Postal Service Financial Statements Audit – Eagan Information                        —              $28,758,859            $28,758,859                         —
Technology and Accounting Service Center; FT-AR-12-007; 12/19/2011
Fiscal Year 2011 Postal Service Financial Statements Audit – St. Louis Information                    —                  $861,075               $851,011                        —
Technology and Accounting Service Center; FT-AR-12-010; 1/18/2012
Information Technology
USPS.com Data Breach; IT-AR-12-004; 3/15/2012                                                         —                 $1,292,132            $1,292,132                        —
TOTAL                                                                                     $1,047,184,458            $777,383,244           $749,491,307           $105,058,258




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period October 1, 2011— March 31, 2012


IMPROVE SERVICE                                                  IMPROVE FINANCIAL PERFORMANCE                             Planning, Innovation, and Optimization
Cost, Revenue, and Rates                                         Facilities, Environmental, and Sustainability             Innovation Best Practices Analysis; CI-AR-12-001;
                                                                 21st Century Post Office: Aligning with the National      12/19/2011
Global Business Systems International Dispatch;
CRR-AR-12-001; 11/8/2011                                         Broadband Infrastructure Initiative;                      U.S. Postal Service Past Network Optimization
                                                                 DA-MA-12-002; 1/23/2012                                   Initiatives; CI-AR-12-003; 1/9/2012
Marketing and Service
                                                                 21st Century Post Office: Opportunities to Share          Retail, Business, and International
Mail Verification Procedures at Detached Mail                    Excess Resources; DA-MA-12-003; 2/9/2012
Units; MS-AR-12-002; 1/12/2012                                                                                             Cancelled Postage Statements - St. Paul, MN,
                                                                 Integrating Sustainable Energy in Facilities;             Business Mail Entry Unit; EN-MA-12-001;
Network Processing                                               DA-MA-12-001; 12/19/2011                                  3/22/2012
Standardization of Mail Processing Equipment at                  Financial                                                 Flint, MI, Processing and Distribution Center
Processing and Distribution Centers;
                                                                 Expedited Packaging Supplies Program;                     Consolidation; EN-AR-12-001; 10/6/2011
NO-AR-12-001; 10/4/2011
                                                                 FI-AR-12-001; 12/28/2011                                  Supply Management
Planning, Innovation, and Optimization
                                                                 Marketing and Service                                     Contracting Opportunities and Impact of the
Domestic Mail Manual Preparation and Acceptance
                                                                 Inbound International Parcel Mail; MS-AR-12-001;          Service Contract Act; CA-AR-12-001; 11/2/2011
Mail Instructions; CI-AR-12-004; 2/2/2012
                                                                 11/23/2011                                                Detailed Financial Condition Risk Assessment -
Postal Service Pricing Strategy; CI-AR-12-002;
                                                                 Network Processing                                        Eagle Express Lines; CA-CAR-12-004; 1/24/2012
12/9/2011
                                                                 Consolidation of Mail Processing Operations at the        Financial Capability Audit - Carter Control Systems,
Retail, Business, and International
                                                                 Mansfield, OH, Customer Service Mail Processing           Inc.; CA-CAR-12-005; 1/31/2012
Postal Service-Operated Retail Facilities                        Center; NO-AR-12-003; 1/20/2012                           Financial Capability Risk Assessment - Kalitta Air;
Discontinuance Program; EN-AR-12-002;
                                                                 Industry, CA, Processing and Distribution Center          CA-CAR-12-003; 1/24/2012
12/1/2011
                                                                 Originating Mail Consolidation; NO-AR-12-002;             Technical Support to Negotiation of Siemens AG,
Supply Management                                                10/17/2011                                                Industry, Mobility, Infrastructure and Logistics
Contract Delivery Service Cost Controls in the                   Oxnard, CA, Processing and Distribution Facility          Subcontract Proposal; CA-CAR-12-002;
Suncoast District; CA-MA-12-001; 2/27/2012                       Destinating Mail Consolidation; NO-AR-12-004;             11/9/2011
                                                                 3/6/2012




October 1, 2011 — March 31, 2012                                                                                                                                           27
APPENDIX A




Transportation                                       South Hackensack Business Mail Entry Unit, South     Financial Reporting
                                                     Hackensack, NJ; FF-MA-12-007; 10/28/2011
Density of First-Class Mail on Air Transportation;                                                        Fiscal Year 2011 Postal Service Financial
NL-AR-12-003; 3/12/2012                              Fiscal Year 2011 Financial Testing Compliance        Statements Audit – Eagan Information Technology
                                                     Detached Mail Unit Oversight Reviews –               and Accounting Service Center; FT-AR-12-007;
Postal Vehicle Service Transportation Routes –       Broadridge Financial Solutions, Inc. Detached Mail   12/19/2011
Margaret L. Sellers Processing and Distribution      Unit, Edgewood, NY; FF-MA-12-008; 11/2/2011
Center; NL-AR-12-001; 2/2/2012                                                                            Fiscal Year 2011 Postal Service Financial
                                                     Fiscal Year 2011 Financial Testing Compliance        Statements Audit – San Mateo Accounting Service
Standardization of Integrated Mail Handling System   Detached Mail Unit Oversight Reviews – Brown         Center; FT-AR-12-009; 1/18/2012
Loaders at Network Distribution Centers;             Printing Company Detached Mail Unit, East
NL-AR-12-002; 2/28/2012                              Greenville, PA; FF-MA-12-006; 10/28/2011             Fiscal Year 2011 Postal Service Financial
                                                                                                          Statements Audit – St. Louis Information
IMPROVE SAFETY AND EMPLOYEE                          Fiscal Year 2011 Financial Testing Compliance        Technology and Accounting Service Center;
ENGAGEMENT                                           Detached Mail Unit Oversight Reviews - DHL           FT-AR-12-010; 1/18/2012
Facilities, Environmental, and Sustainability        Global Mail Detached Mail Unit – Rutherford, NJ;
                                                     FF-MA-12-004; 10/25/2011                             Fiscal Year 2011 Postal Service Financial
Dayton, OH, Processing and Distribution Center                                                            Statements Audit – Washington, D.C.,
Congressional Request; DA-MA-12-004; 3/5/2012        Fiscal Year 2011 Financial Testing Compliance        Headquarters; FT-AR-12-005; 12/12/2011
                                                     Detached Mail Unit Oversight Reviews – Freedom
Human Resources and Security                         Graphics Systems Detached Mail Unit, Grand           J.T. Weeker (Chicago) International Service Center
                                                     Prairie, TX; FI-MA-12-001; 10/14/2011                - International Airmail Records Unit;
Postal Service Mail Security; HR-AR-12-002;                                                               FT-AR-12-002; 10/31/2011
3/30/2012                                            Fiscal Year 2011 Financial Testing Compliance
                                                     Detached Mail Unit Oversight Review – Harte          Los Angeles International Service Center -
Unauthorized Overtime Usage in Field Operations;                                                          International Airmail Records Unit; FT-AR-12-001;
HR-AR-12-003; 3/30/2012                              Hanks Detached Mail Unit, Grand Prairie, TX;
                                                     FI-MA-12-002; 10/24/2011                             10/26/2011
U.S. Postal Service’s Health and Safety Program;                                                          New York International Service
HR-AR-12-001; 11/14/2011                             Fiscal Year 2011 Financial Testing Compliance
                                                     Detached Mail Unit Oversight Reviews - Instant       Center – International Airmail Records Unit;
REGULATORY STUDIES AND REPORTING                     Web Companies Direct Detached Mail Unit,             FT-AR-12-006; 12/19/2011
OBLIGATIONS                                          Hamburg, PA; FF-MA-12-005; 10/28/2011                Officers’ Travel and Representation Expenses for
Cost, Pricing, and Rates                             Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011; FT-AR-12-008; 12/19/2011
Management Operating Data System;                    Detached Mail Unit Oversight Reviews – RR            Opinion on the Postal Service’s Special-Purpose
CRR-AR-12-002; 12/13/2011                            Donnelley Detached Mail Unit, Logan, UT;             Financial Statements; FT-AR-12-003; 11/15/2011
                                                     FF-MA-12-003; 10/24/2011
Revenue, Pieces, and Weight Inputs into the Cost                                                          Postal Service Board of Governors’ Travel and
and Revenue Analysis Report; CRR-AR-12-003;          Fiscal Year 2011 Financial Testing Compliance        Miscellaneous Expenses for Fiscal Year 2011;
1/27/2012                                            Detached Mail Unit Oversight Reviews – WA Wilde      FT-AR-12-004; 12/6/2011
                                                     Detached Mail Unit, Holliston, MA; FF-MA-12-009;
PRESERVING ACCOUNTABILITY                            11/9/2011                                            Information Technology
Financial                                            Fiscal Year 2011 Financial Testing Compliance        Fiscal Year 2011 Information Technology Internal
                                                     Oversight Reviews; FI-MA-12-003; 1/20/2012           Controls; IT-AR-12-003; 1/9/2012
Bad Check Prevention and Collection;
FI-AR-12-002; 1/10/2012                              Postal Service Mail Volume Reporting;                Patch Management Processes; IT-AR-12-002;
                                                     FF-AR-12-002; 3/7/2012                               1/9/2012
Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –         Quarter 1, Fiscal Year 2012, Field Testing Control   SAP Human Capital Management System Security
Birmingham Business Mail Entry Unit,                 and Oversight Business Mail Entry Unit/Staged        Assessment; IT-AR-12-005; 3/19/2012
Birmingham, AL; FF-MA-12-001; 10/4/2011              Detached Mail Unit Reviews; FI-MA-12-005;            State of Corporate Information Technology Security;
Fiscal Year 2011 Financial Testing Compliance        3/1/2012                                             IT-AR-12-001; 10/21/2011
Business Mail Entry Unit Oversight Reviews           Quarter 1, Fiscal Year 2012, Field Testing Control
– Ft. Lauderdale Business Mail Entry Unit, Ft.                                                            USPS.com Data Breach; IT-AR-12-004; 3/15/2012
                                                     and Oversight Plant Verified Drop Shipment
Lauderdale, FL; FF-MA-12-002; 10/11/2011             Reviews; FI-MA-12-004; 2/10/2012
Fiscal Year 2011 Financial Testing Compliance
Business Mail Entry Unit Oversight Reviews –




   28                                                                                                                       Semiannual Report to Congress
                                                                                                                                              APPENDIX A




PARIS Risk Models
Complete listing of all OIG PARIS Risk Models issued to Postal Service management.

For the period October 1, 2011— March 31, 2012
Cost, Pricing, and Rates                             Fiscal Year 2012 Business Mail Entry Unit Risk      Planning, Innovation, and Optimization
                                                     Model Quarter 1; FI-ID-12-002; 3/15/2012
Fiscal Year 2011 Cost, Revenue, and Rates Risk                                                           Fiscal Year 2011 Workplace Environment Risk
Model Quarter 4; CRR-ID-12-001; 11/15/2011           Fiscal Year 2012 Cost and Controls Risk Model       Model Quarter 4; CI-ID-12-005; 12/15/2011
                                                     Quarter 1; FF-ID-12-004; 3/1/2012
Fiscal Year 2012 Cost, Pricing, and Rates Risk                                                           Fiscal Year 2012 Workplace Environment Risk
Model Quarter 1; CRR-ID-12-002; 2/15/2012            Financial Reporting                                 Model Quarter 1; CI-ID-12-012; 2/28/2012
Delivery                                             Fiscal Year 2011 Bank Secrecy Act Risk Model        Retail, Business, and International
                                                     Quarter 4; FT-ID-12-001; 11/8/2011
Fiscal Year 2011 City Delivery Efficiency Risk                                                           Fiscal Year 2011 Revenue Generation and
Model Quarter 4; DR-ID-12-001; 11/17/2011            Fiscal Year 2011 General Ledger Risk Model          Assurance Risk Model Quarter 4; EN-ID-12-001;
                                                     Quarter 4; FT-ID-12-002; 12/7/2011                  12/12/2011
Fiscal Year 2012 City Delivery Efficiency Risk
Model Quarter 1; DR-ID-12-002; 2/21/2012             Fiscal Year 2012 Bank Secrecy Act Risk Model        Fiscal Year 2012 Revenue Generation and
                                                     Quarter 1; FT-ID-12-003; 2/13/2012                  Assurance Risk Model Quarter 1; EN-ID-12-002;
Facilities, Environmental, and Sustainability                                                            3/15/2012
                                                     Fiscal Year 2012 General Ledger Risk Model
Fiscal Year 2011 Green Risk Model Quarter 4;         Quarter 1; FT-ID-12-004; 2/16/2012                  Supply Management
DA-ID-12-003; 11/23/2011
                                                     Human Resources and Security                        Fiscal Year 2011 Supplier Solvency Risk Model
Fiscal Year 2011 Maintenance Risk Model Quarter                                                          Quarter 4; CA-ID-12-001; 11/9/2011
4; DA-ID-12-001; 11/23/2011                          Fiscal Year 2012 Human Capital Risk Model
                                                     Quarter 1; HR-ID-12-001; 3/29/2012                  Fiscal Year 2012 Supplier Solvency Risk Model
Fiscal Year 2011 Real Estate Risk Model Quarter 4;                                                       Quarter 1; CA-ID-12-002; 2/13/2012
DA-ID-12-002; 11/23/2011                             Information Technology
                                                                                                         Transportation
Fiscal Year 2012 Green Risk Model Quarter 1;         Fiscal Year 2012 Information Technology Security
DA-ID-12-004; 2/14/2012                              Model Quarter 1; IT-ID-12-002; 2/7/2012             Fiscal Year 2011 Air Transportation Risk Model
                                                                                                         Quarter 4; NL-ID-12-001; 11/15/2011
Fiscal Year 2012 Real Estate Risk Model Quarter 1;   Information Technology Rationalization;
DA-ID-12-005; 2/15/2012                              IT-ID-12-001; 1/9/2012                              Fiscal Year 2011 Surface Transportation Risk
                                                                                                         Model Quarter 4; NL-ID-12-002; 11/15/2011
Financial                                            Marketing and Services
                                                                                                         Fiscal Year 2012 Air Transportation Risk Model
Fiscal Year 2011 10K Review; FI-ID-12-001;           Fiscal Year 2011 Retail Customer Service Risk       Quarter 1; NL-ID-12-004; 2/15/2012
1/5/2012                                             Model Quarter 4; MS-ID-12-001; 11/15/2011
                                                                                                         Fiscal Year 2012 Surface Transportation Risk
Fiscal Year 2011 Audit of Confidential Funds;        Fiscal Year 2012 Retail Customer Service Risk       Model Quarter 1; NL-ID-12-003; 2/7/2012
FF-ID-12-001; 11/2/2011                              Model Quarter 1; MS-ID-12-002; 2/15/2012
Fiscal Year 2011 Cost and Controls Risk Model        Network Processing
Quarter 4; FF-ID-12-002; 11/14/2011
                                                     Fiscal Year 2011 Operations Risk Model Quarter 4;
                                                     NO-ID-12-001;11/10/2011




October 1, 2011 — March 31, 2012                                                                                                                        29
APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period October 1, 2011— March 31, 2012


As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                               Unsupported Costs
                                                                                                                                                      Included in
Description                                                                                  Number of Reports        Questioned Costs          Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                     9             $ 156,986,822               $ 143,509,693
Reports requiring management decision that were issued during the reporting period                             7             $ 777,383,244               $ 749,491,307
TOTAL                                                                                                         16            $ 934,370,066                $ 893,001,000


Reports for which a management decision was made during the reporting period (i & ii)                         16             $ 934,370,066               $ 893,001,000
   (i) Dollar Value of disallowed cost                                                                                       $ 776,379,434                $ 747,357,164
   (ii) Dollar value of cost not disallowed                                                                                  $ 157,990,632               $ 145,643,836
Reports for which no management decision was made by the end of the reporting period                         —                          —                           —
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                —                          —                           —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                  —                          —                           —
(See Note 2 for a list of individual reports)
Contract reports with a significant audit finding                                                            —                          —                           —
(See Note 3 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period

Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period
Note 3 — Contract reports with a significant audit finding:
None for this report period




    30                                                                                                                             Semiannual Report to Congress
                                                                                                                                                    APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period October 1, 2011— March 31, 2012

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports    Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                  —                —
Reports issued during the reporting period                                                                   4   $ 1,047,184,458
TOTAL                                                                                                        4   $ 1,047,184,458


Reports for which a management decision was made during the report period (i & ii)                           4   $ 1,047,184,458
   (i) Value of recommendations agreed to by management                                                     —     $ 244,260,629
   (ii) Value of recommendations that were not agreed to by management                                      —     $ 802,923,829
Reports for which no management decision was made by the end of the reporting period                        —                —
Reports for which no management decision was made within 6 months of issuance                               —                —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                 —                —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period




October 1, 2011 — March 31, 2012                                                                                                                            31
APPENDIX D




APPENDIX D
Other Impacts
For the period October 1, 2011— March 31, 2012

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.



                                                                                                                                     Type of Measure                       Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products                   Number of Recommendations                            30
and services
Number of customer service audits conducted                                                                                          Number of Audits                                      9


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                  Dollar Value                                $64,592,682
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate                Dollar Value                                         —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment                         Number of Recommendations                            23
Number of employee/facility safety and security audits conducted                                                                     Number of Audits                                     14
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss         Dollar Value                                         —
Dollar value of data at risk                                                                                                         Dollar Value                                $171,696,941
Number of data security/IT security audits conducted                                                                                 Number of Audits                                     13
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing. (Mailers seeking alternative solutions for current services)   Dollar Value                                $53,633,883
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                     Dollar Value                                         —
Goodwill/Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a                           Number of Issues Identified                          19
potential problem that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific, or              Dollar Value                                         —
institutional costs
Predicted Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the                 Dollar Value                                 $9,718,224
actual savings realized
Potential Additional Revenue
Revenue the Postal Service could potentially generate for goods delivered or services rendered based on suggested                    Dollar Value                                         —
improvements




    32                                                                                                                                                         Semiannual Report to Congress
                                                                                                                                                   APPENDIX D




                                                                                                               Type of Measure                  Value or Amount

RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                       Number of Data Records at Risk          2,099,721
Dollar value of data used to support management decisions that is not fully supported or completely accurate   Dollar Value                        $1,178,077,000




October 1, 2011 — March 31, 2012                                                                                                                           33
APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through March 31, 2012

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                                   Report Title, Recommendation Summary
                                                          	 R = Recommendation number
Report Number                Issue Date                   	 TID = Target Implementation Date
IS-AR-07-017                 8/29/2007             Separation of Duties at the Eagan, MN; San Mateo, CA; and St. Louis, MO, Information Technology and Accounting
                                                   Service Centers

                                                   R-4 — Notify the Postal Inspection Service when a new Information Technology and Accounting Service Center position is
                                                         created, a new employee is hired, or an employee is promoted to a new position, to make certain the proper clearance
                                                         level is attributed to the employee. TID: June 2012
FF-AR-08-131                 3/19/2008             Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units

                                                   R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                                         received during non-business hours. TID: October 2012
FF-MA-08-001                 7/21/2008             Fiscal Year 2008 – Use of No-Fee Money Orders

                                                   R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal
                                                         Service’s exposure to financial loss. TID: June 2012
SA-AR-08-013                 8/22/2008             Security Clearances for Postal Service Employees

                                                   R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                         clearance. TID: May 2012
IS-AR-08-016                 8/29/2008             Identity Theft Potential in the Change of Address Process
                                                   R-1 — Update the Internet and Telephone Change of Address applications to eliminate acceptance of anonymous prepaid
                                                         credit cards. TID: June 2012
IS-AR-09-001                 10/8/2008             Electronic Travel Voucher System Controls
                                                   R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                         government lodging rate, whenever practical. TID: May 2012
                                                   R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify
                                                         exceeding the government lodging rate within the notes on the electronic voucher. TID: April 2012
FF-AR-09-055                 12/26/2008            Fiscal Year 2008 Financial Installation Audits – Post Offices, Stations, and Branches

                                                   R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096, Customer Receipt, and determine when
                                                         this has been completed. TID: March 2012
IS-AR-09-004                 2/20/2009             Access Controls in the Enterprise Data Warehouse

                                                   R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by
                                                         Postal Service Handbook AS-805-A, Application Information Security Assurance (ISA) Process. TID: June 2012
EN-AR-09-005                 9/28/2009             Performance Goals for Market-Dominant Products

                                                   R-1 — Document the methodology used to develop future performance goals for market-dominant products.
                                                         TID: December 2012




   34                                                                                                                                          Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                                        Report Title, Recommendation Summary
                                               	 R = Recommendation number
  Report Number            Issue Date          	 TID = Target Implementation Date
  NL-AR-09-010             9/30/2009    Fuel Management Consumption Strategies for Surface Network Operations

                                        R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and Highway Contract
                                              Route transportation to ensure that it is comprehensive and implements the industry best practices identified in our
                                              audit. TID: June 2011

                                        R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                              resistance and identify the most viable advanced aerodynamics options consistent with industry best practices and
                                              adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011

                                        R-3 — Establish and implement tire inflation maintenance requirements for its owned heavy-duty vehicle fleet, as well as its
                                              leased, and contracted vehicles consistent with industry best practices and adjust contracts as appropriate to account
                                              for the reduced fuel need. TID: June 2011

                                        R-5 — Evaluate Highway Contract Routes and, where feasible, implement speed limit requirements consistent with industry
                                              best practices and adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011
  IS-AR-10-002             12/22/2009   General Control Review of Human Resources Shared Service Center

                                        R-2 — Initiate appropriate security clearance investigations for all employees in sensitive positions at the Human Resources
                                              Shared Service Center. TID: May 2012
  MS-AR-10-001             2/9/2010     Plant-Verified Drop Shipment Controls

                                        R-4 — Provide an electronic reporting solution whereby PS Form 8125, Plant-Verified Drop Shipment (PVDS) Verification
                                              and Clearance, information at the destination facility can be compared with the information at the origin location.
                                              Discrepancies or incomplete forms should be investigated. TID: December 2012
  EN-AR-10-003             2/12/2010    Manasota Processing and Distribution Center Consolidation

                                        R-1 — Ensure the implementation activities of processing and distribution center consolidations begin immediately after area
                                              mail processing proposal approval and require headquarters’ approval when implementation is delayed more than
                                              3 months. TID: May 2011
  DR-AR-10-003             3/16/2010    Rural Delivery Christmas Operations

                                        R-1 — Renegotiate with the National Rural Letter Carriers Association (NRLCA) to eliminate the supplemental Christmas
                                              Overtime Pay Provision, Article 9.2(k), set forth in the NRLCA Agreement expiring in November 2010 and any
                                              subsequent NRLCA agreements. TID: December 2012




October 1, 2011 — March 31, 2012                                                                                                                              35
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IS-AR-10-008    5/4/2010     Certification and Accreditation Process

                             R-1 — Provide Corporate Information Security the authority necessary to enforce and execute the responsibilities for managing
                                   the Certification and Accreditation process. TID: December 2012

                             R-3 — Ensure all portfolio managers receive mandatory training regarding their role, responsibility, and accountability for
                                   implementing and reinitiating the Certification and Accreditation process. This training should also be made available
                                   to all executive sponsors. TID: December 2012

                             R-4 — Hold portfolio managers accountable to complete the Certification and Accreditation process within the Technology
                                   Solutions Life Cycle prior to implementing critical applications into the production environment. TID: December 2012

                             R-5 — Complete the Certification and Accreditation process for all critical applications currently in production, as required by
                                   Handbook AS-805, Information Security. TID: December 2012

                             R-6 — Ensure the portfolio managers work with the executive sponsors to initiate the recertification process for critical
                                   applications assigned to their functional areas as required by Handbook AS-805, Information Security.
                                   TID: December 2012

                             R-7 — Develop a formal, centralized mechanism to track the status of all unmitigated residual risks identified in the applications’
                                   risk mitigation plan. TID: December 2012

                             R-8 — Input unmitigated residual risks identified in the applications’ risk mitigation plan into the formal, centralized tracking
                                   mechanism and track the risks through resolution. TID: December 2012

                             R-9 — Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and recertification
                                   letters associated with the critical applications. TID: December 2012

                             R-12 — Input the Certification and Accreditation documentation for all critical applications into the central repository.
                                    TID: December 2012
CA-AR-10-004    5/27/2010    Contract Payment Terms
                             R-1 — Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other
                                   sections as necessary, with language stating that when contracting officers negotiate payment terms other than net 30
                                   days they include the business rationale and associated documentation for the payment terms in the contract file.
                                   TID: February 2012
NO-MA-10-001    6/11/2010    Assessment of Overall Plant Efficiency 2010

                             R-1 — Reduce 16.2 million workhours by FY 2012 with an associated economic impact of $743,961,610.
                                   TID: December 2012
CI-MA-10-001    6/18/2010    Civil Service Retirement System Overpayment by the Postal Service

                             R-1 — Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return
                                   of the $75 billion overpayment or to otherwise realize the benefit of this overpayment to the Postal Service. TID: None
MS-AR-10-004    7/28/2010    Efficiency of Retail Customer Service Operations

                             R-1 — Implement best practices for Retail Customer Service operations at all facilities. TID: October 2011

                             R-2 — Explore opportunities to consolidate business mail acceptance operations at post offices, stations, and branches.
                                   TID: October 2011

                             R-4 — Re-deploy employees, as appropriate, to facilities where there is sufficient workload to support the workhours.
                                   TID: October 2011




  36                                                                                                                        Semiannual Report to Congress
                                                                                                                                                            APPENDIX E




                                        Report Title, Recommendation Summary
                                               	 R = Recommendation number
Report Number           Report Number          	 TID = Target Implementation Date
FT-MA-10-001             8/16/2010      Federal Employees Retirement System Overfunding

                                        R-1 — Pursue legislative action to alter the Postal Service’s Civil Service Retirement and Disability Fund Contributions for 1 or
                                              more years until the Federal Employees Retirement System surplus is extinguished. TID: September 2011

                                        R-2 — Coordinate with the Office of Personnel Management to identify causes of actual payout differences between the
                                              Postal Service and the rest of the federal government and use that information to reduce the risk of future surpluses.
                                              TID: September 2011

                                        R-3 — Pursue legislative action to define future distribution of significant surpluses. TID: September 2011

                                        R-4 — Coordinate with the Office of Personnel Management to create a sub-account within the Civil Service Retirement and
                                              Disability Fund exclusive to the Postal Service. TID: September 2011
DA-MA-10-004             8/31/2010      Postal Service Patent Management

                                        R-1 — Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength.
                                              TID: June 2012
IS-MA-10-001             9/2/2010       Securing Sensitive Data on Postal Inspection Service Laptops

                                        R-1 — Create and maintain an inventory of all existing Inspection Service laptops. TID: March 2012

                                        R-2 — Install full disk encryption on all new Inspection Service laptop computers before deployment. TID: March 2012

                                        R-3 — Develop an expedited deployment schedule to reduce the risk of sensitive data loss from the unencrypted laptops.
                                              TID: March 2012

                                        R-4 — Remove and destroy hard drives, or completely degauss, all sensitive data stored on the older Postal Inspection Service
                                              laptops before disposing of the equipment. TID: March 2012

                                        R-5 — Enter all new laptops in the centralized inventory system upon deployment to Inspection Service users.
                                              TID: March 2012
EN-AR-10-006             9/17/2010      Southeast Area Processing and Distribution Center Consolidations

                                        R-1 — Complete the full consolidation feasibility study on the Daytona Beach Processing and Distribution Facility into the
                                              Mid-Florida Processing and Distribution Center and take action to eliminate excess space in the Mid-Florida Processing
                                              and Distribution Center TID: December 2011

                                        R-2 — Determine alternate uses of excess space at the Birmingham Processing and Distribution Center and annex.
                                              TID: June 2011
FF-AR-10-224             9/20/2010      Postal Service Area and District Office Field Structure

                                        R-2 — Implement one or more of the three options, or combinations of portions of these options, for consolidating the area
                                              and district field structure:
                                                  Consolidate district offices that are within 50 miles of one another.
                                                  Consolidate area and district offices that have less than the mean mail volume and workhours.
                                                  Relocate area offices to headquarters.

                                                TID: None

                                        R-3 — Develop a policy and process for performing a comprehensive evaluation of the area and district office structure at
                                              least every 5 years. TID: March 2012

                                        R-4 — Develop a policy and procedures to maintain adequate supporting documentation for all area and district consolidations or
                                              expansions as part of a comprehensive strategic plan. TID: March 2012




October 1, 2011 — March 31, 2012                                                                                                                                     37
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
CA-AR-10-005    9/20/2010    U.S. Postal Service Purchasing Policies

                             R-5 — Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data
                                   reported should include, but not be limited to, total dollars committed both competitively and noncompetitively; and
                                   the contractor, dollar value, and noncompetitive justifications for noncompetitive contracts. The tracking mechanism
                                   should be able to identify when a noncompetitive contract has crossed the review and approval threshold based on
                                   modification after initial award. TID: February 2012

                             R-6 — Revoke delegations of authority for contracts that acquire goods and services for the Postal Service and bring these
                                   contracts into compliance with all Postal Service purchasing policies. TID: February 2012

                             R-9 — Institute an oversight mechanism to ensure and track compliance with updated noncompetitive contracting policies.
                                   TID: March 2012
IS-AR-10-014    9/23/2010    Controls Over Payment Card Transaction Data

                             R-1 — Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and
                                   milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance.
                                   TID: September 2013
NL-AR-10-010    9/29/2010    Air Networks – Federal Express Transportation Agreement – National Analysis

                             R-5 — Standardize Postal Service oversight at Terminal Handling Services operations to ensure adequate on-site Postal
                                   Service representation to monitor Federal Express operations and ensure local compliance with established processes
                                   and procedures. TID: March 2011
NL-AR-10-009    9/29/2010    Management of Mail Transport Equipment - National Analysis

                             R-1 — Further develop, update and reinforce national Mail Transport Equipment policies and procedures contained in the
                                   Postal Operations Manual (POM) and the Postal Handbook PO-502, Container Methods, which address Mail Transport
                                   Equipment inventory and accountability controls, including validating customer Mail Transport Equipment needs as well
                                   as tracking and reconciling Mail Transport Equipment loaned to mailers and other external customers. TID: May 2012

                             R-2 — Continue pursuing implementation of a planned automated Mail Transport Equipment management system and ensure
                                   its functionality for inventory and accountability processes and for enhancing the Postal Service’s visibility into Mail
                                   Transport Equipment internally and at mailers. TID: June 2011

                             R-4 — Ensure that Area Distribution Networks’ Offices have appropriate resources assigned responsibly to monitor and
                                   manage Mail Transport Equipment, and maintain compliance with Postal Operations Manual requirements.
                                   TID: March 2012

                             R-5 — Document the current process for identifying annual, routine Mail Transport Equipment purchase requirements and
                                   ensure the process includes Mail Transport Equipment Service Center network information and facility and mailer
                                   inventory data, to ensure that only the necessary amount of Mail Transport Equipment is purchased. TID: June 2011




  38                                                                                                                  Semiannual Report to Congress
                                                                                                                                                           APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
CA-AR-10-006             9/30/2010    Certification Process for Electronic Payments

                                      R-1 — Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                            certification of invoices. TID: March 2012

                                      R-2 — Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                            Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                            correct and goods and services were received. TID: March 2012

                                      R-3 — Develop and implement written procedures for receiving invoices for annual HCR services and verifying that services
                                            were rendered prior to payment. TID: March 2012

                                      R-4 — Identify and notify the contracting officers to oversee and administer all HCR payments in the Postal Service Accounts
                                            Payable Excellence system. TID: February 2012

                                      R-5 — Review the $7.6 million in payments made more than 30 days after contract end dates and collect overpayments.
                                            TID: March 2012

                                      R-6 — Provide detailed, consistent training for all designated officials on their roles and responsibilities and the usage of the
                                            Utility Management System. TID: August 2011

                                      R-8 — Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                            positive certification by the designated official before invoice payment. TID: August 2011
FT-MA-10-002             9/30/2010    Summary of Substantial Overfunding and Postal Service Pension and Retiree Health Care Funds

                                      R-1 — Develop a comprehensive legislative strategy to recover overfunded amounts. TID: September 2011

                                      R-2 — Aggressively pursue and carefully review all available data related to Civil Service Retirement System, Federal
                                            Employee Retirement System, and retiree health benefit calculations, including those associated with determining any
                                            overfunding situations, to ensure that calculations are reasonable and accurate. TID: September 2011
CA-AR-11-001             11/23/2010   Information Technology Contract Payment Oversight

                                      R-1 — Ensure that proper personnel have a contracting officer’s representatives (CORs) letter of designation that allows them
                                            to certify invoices for payment. TID: August 2011

                                      R-2 — Require contracting officers’ representatives to reconcile invoices to receiving documents prior to certification for
                                            payment. TID: August 2011
NL-MA-11-001             12/6/2010    Surface Mail Classes on Air Transportation Networks

                                      R-1 — Verify that actions already taken related to minimizing surface mail classes on the FedEx Day-Turn network are applied
                                            to other air networks to ensure transportation managers use surface transportation, instead of the FedEx Night-Turn,
                                            commercial air carrier, United Parcel Service, and Christmas air transportation networks to move surface mail types
                                            where possible. TID: None

                                      R-2 — Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and
                                            Revenue Analysis data, to monitor and track the volume and avoid additional costs for flying surface mail classes on
                                            the FedEx Night-Turn, commercial air carrier, United Parcel Service, and Christmas air transportation networks.
                                            TID: September 2011

                                      R-3 — Reinforce existing policies and procedures for the processing and assigning of mail to air and surface transportation.
                                            TID: None
NO-AR-11-004             12/14/2010   Houston, TX Processing and Distribution Center Mail Consolidation

                                      R-1 — Pursue expansion of the North Houston Processing and Distribution Center and consolidate the Houston Processing
                                            and Distribution Center’s mail processing operations into the expanded facility, by fiscal year 2013.
                                            TID: September 2013




October 1, 2011 — March 31, 2012                                                                                                                                    39
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
FF-AR-11-004    12/15/2010   Express Mail Guarantees

                             R-5 — Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate
                                   risk and identify necessary changes in service in order to make better business decisions for guarantees.
                                   TID: October 2012

DR-MA-11-001    3/14/2011    The Effects of the Flats Sequencing System on Delivery Operations – Arizona District

                             R-1 — Continue to collaborate with business mailers to ensure flat mailpieces meet automation requirements and reduce the
                                   amount of unworked flat mail sent to delivery units. TID: None
IT-AR-11-004    3/16/2011    Computer Incident Data Reliability

                             R-3 — Integrate the Data Loss Prevention and Security Information Manager applications with the security incident
                                   management system to ensure a single incident data repository. TID: October 2012

                             R-4 — Either modify the existing incident management system or pursue development of a new system that enforces date and
                                   time value sequence and data validation. TID: October 2012
NL-AR-11-002    3/18/2011    Postal Vehicle Service – Scheduling and Staffing – Connecticut Valley District

                             R-1 — Ensure that Southern Connecticut Processing and Distribution Center and Springfield Processing and Distribution
                                   Center managers follow prescribed fleet management procedures for making Postal Vehicle Service schedules
                                   effective, including conducting schedule and vehicle utilization reviews. TID: None

                             R-2 — Verify elimination from the Postal Vehicle Service trip schedules of 7,245 workhours from the Southern Connecticut
                                   Processing and Distribution Center and 2,856 workhours from the Springfield Processing and Distribution Center
                                   identified during our audit and already agreed to by management. TID: March 2011

                             R-3 — Reassess the remaining 4,562 workhours identified in our audit and eliminate the workhours as indicated by the
                                   reassessment, or document the reasons for retaining the workhours. TID: May 2011
HR-AR-11-001    3/31/2011    Allegations of Inaccurate Time and Attendance Records

                             R-2 — Issue supplemental guidance emphasizing the importance of completing Postal Service Form 1017-A, Time
                                   Disallowance Record, and PS Form 3971, Request for or Notification of Absence. TID: July 2012

                             R-3— Establish a review and approval process to ensure time disallowances are appropriate and documented as required.
                                  TID: July 2012

                             R-4 — Establish periodic monitoring of clock ring deletions to ensure employee workhours are recorded accurately.
                                   TID: July 2012

                             R-5 — Provide periodic refresher training to managers, postmasters, supervisors, and acting supervisors on the Time and
                                   Attendance Collection System. TID: July 2012

                             R-6 — Issue supplemental guidance to supervisors and managers regarding the appropriate use of operation codes
                                   associated with recording safety talks and informational meetings in the Time and Attendance Collection System.
                                   TID: July 2012
HR-AR-11-003    3/31/2011    Overtime Usage

                             R-2 — Ensure significant changes impacting operations and resources are accounted for in the budget plan. TID: None




  40                                                                                                                 Semiannual Report to Congress
                                                                                                                                                         APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
DA-MA-11-002             4/8/2011     Postal Service Patent Management Continuation

                                      R-1 — Work closely with subject matter experts to review highly rated patents to draft claims as appropriate.
                                            TID: June 2012

                                      R-2 — Develop a comprehensive strategy for developing patent intellectual property that enhances Postal Service products
                                            and services and its competitive position in the global marketplace and is a source of income. The strategy should
                                            capitalize on patent evaluations performed to date and include an assessment of business options available for
                                            achieving the significant financial returns. TID: June 2012

                                      R-3 — Ensure the Postal Service has an effective patent management process and comprehensive licensing program in place.
                                            This establishes control that protects intellectual capital and provides an appropriate return on investment.
                                            TID: June 2012
HR-MA-11-001             4/22/2011    Retirement for U.S. Postal Service Employees on Workers’ Compensation

                                      R-1 — Continue to pursue legislative change to reform the Federal Employees’ Compensation Act to reduce workers’
                                            compensation benefits for retirement age employees. TID: None
CA-AR-11-004             4/27/2011    Internal Controls over the Contract Close-out Process

                                      R-1 — Establish standardized contract close-out policies and procedures. This should include a system alert requiring
                                            contracting staff to complete Contract Authoring Management System close-out reports before they close-out a
                                            contract and ensuring that remaining funds are promptly decommitted when the contract is completed and closed.
                                            TID: September 2012

                                      R-3 — Establish a periodic control to ensure category management center personnel follow records management
                                            requirements for contract files, including, but not limited to retaining records for the required 6 years. TID: March 2012
NO-MA-11-004             5/20/2011    Assessment of Overall Plant Efficiency 2011

                                      R-1 — Reduce 14,017,630 workhours by FY 2012 with an associated economic impact of $647,586,823.
                                            TID: September 2013
HR-AR-11-004             5/27/2011    Compliance with Occupational Safety and Health Administration Recordkeeping Requirements

                                      R-2 — Revise the Postal Service Occupational Safety and Health Administration Recordable Date policy to better clarify how
                                            to determine Occupational Safety and Health Administration recordable dates when they differ from the initial injury or
                                            illness date. TID: March 2012

                                      R-4 — Establish mandatory training for officials responsible for determining Occupational Safety and Health Administration
                                            recordable cases and completing related forms. TID: December 2011




October 1, 2011 — March 31, 2012                                                                                                                                 41
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
NL-AR-11-003    6/7/2011     Management of the Highway Contract Route Voyager Card Program

                             R-1 — Further develop, update, and reinforce requirements for the Postal Service and HCR suppliers to enhance systems
                                   infrastructure, including incorporating systems edits and automation tools where possible, and monitor fuel
                                   transactions as necessary to avoid unauthorized purchases and ensure adherence to contract gallon limits.
                                   TID: October 2011

                             R-2 — Ensure that contracting officers apply pooling in accordance with established requirements and ensure pools are
                                   appropriately documented and approved. TID: October 2011

                             R-3 — Perform and document all outstanding reconciliations for prior periods to determine excess purchased fuel gallons and
                                   collect resultant overpayments. TID: October 2011

                             R-4 — Implement controls over the contractors that include:
                                     Strengthening procedures for safeguarding and securing HCR Voyager Cards; ensuring suppliers use available tools
                                       to effectively manage the cards; and requiring that suppliers maintain an inventory of issued cards.
                                     Coordinating with the U.S. Bank to limit the number of HCR Voyager Cards issued to highway suppliers; establish
                                       a secure activation protocol for mailed HCR Voyager Cards and unique personal identification numbers; and
                                       implement a periodic review of new, cancelled, and extra HCR Voyager Cards to identify potential patterns of
                                       mismanagement or misuse.
                                    TID: June 2012

                             R-5 — Continue to pursue funding when feasible for enhancing the functionality of the Fuel Asset Management System and
                                   Enterprise Data Warehouse eFuel modules and to ensure the systems are user-friendly and enable management to
                                   more efficiently and effectively monitor authorized gallons, identify excess gallons, and recover any related excess
                                   payments. TID: None

                             R-6 — Periodically assess the financial and operational viability of the HCR Voyager Card program, including performing a
                                   formal cost-benefit analysis based on complete and recent data, considering the costs of implementing controls to
                                   address deficiencies identified in this report as appropriate. TID: September 2011

                             R-7 — Continue to identify and evaluate other fuel management program best practices used in the transportation industry,
                                   and perform a comparative analysis against the existing HCR Voyager Card program, where possible. TID: None
DA-AR-11-008    6/8/2011     Conflicts of Interest: Facility Leases and Contract Delivery Services

                             R-1 — Revise the Postal Service’s policy for leasing property under 3,000 square feet from employees or relatives to include
                                   an ethics review. TID: March 2012

                             R-2 — Evaluate the universe of potential facility lease conflicts and develop an action plan to minimize active and future
                                   conflicts. TID: June 2012

                             R-3 — Implement a control to systemically identify, monitor, and resolve potential conflicts of interest with facility leases and,
                                   if necessary, request waivers for leases that represent conflicts. TID: March 2012

                             R-4 — Evaluate the universe of potential delivery service contract conflicts and develop an action plan to minimize active and
                                   future conflicts. TID: February 2012

                             R-5 — Implement a control to systemically identify, monitor, and resolve contract delivery service regulatory and policy
                                   violations in a timely manner. TID: February 2012
DR-MA-11-002    7/19/2011    National Assessment of City Delivery Efficiency 2011 - Office Performance

                             R-1 — Reduce 2,002,690 workhours during fiscal year 2012 with an associated economic impact of $88,192,128. TID: None




  42                                                                                                                     Semiannual Report to Congress
                                                                                                                                                        APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
NL-AR-11-004             7/25/2011    Postal Vehicle Service Transportation Routes – Baltimore Processing and Distribution Center

                                      R-1 — Ensure that Baltimore Processing and Distribution Center managers follow prescribed fleet management procedures for
                                            making Postal Vehicle Service schedules effective, including conducting schedule and vehicle utilization reviews.
                                            TID: None

                                      R-2 — Verify elimination of the 11,789 workhours identified in our audit - and already agreed to by management - from the
                                            Postal Vehicle Service trip schedules. TID: None

                                      R-3 — Reassess the remaining 7,273 workhours and eliminate the workhours as indicated by the reassessment or document
                                            the reasons for retaining them. TID: August 2011

                                      R-4 — Eliminate from highway contracts 24 trips identified in our audit and already agreed to by local and area management.
                                            TID: None
HR-AR-11-005             8/5/2011     Postal Service Facility Security

                                      R-3 — Issue supplemental guidance and enhance internal controls to:
                                              Ensure security control officers conduct facility security surveys as required.
                                              Ensure corrective actions are taken to address security deficiencies.
                                              Ensure security control officers take the mandatory security training.

                                              TID: August 2012
HR-AR-11-006             8/8/2011     2009 Pay for Performance Program

                                      R-1 — Clarify policies and procedures to better define the relationship between the national performance assessment and
                                            core requirements, and the role of higher level management in the pay for performance process. TID: July 2012

                                      R-2 — Establish and implement mandatory training events that educate new and existing participants and managers on policy,
                                            roles and responsibilities, goal setting, and the program’s objectives. TID: July 2012

                                      R-3 — Evaluate the effectiveness of the current process used to establish and use behavioral core objectives to rate
                                            employees’ performance. TID: July 2012
HR-MA-11-003             8/12/2011    Stand-by Time

                                      R-1 — Assess the inappropriate use of stand-by overtime nationwide, especially in function one, and implement internal
                                            controls to address usage and recording issues identified. TID: September 2011

                                      R-2 — Enhance management controls to ensure employees and supervisors accurately report and record stand-by time.
                                            TID: September 2011
CA-AR-11-005             8/24/2011    Contract Funding Approval

                                      R-1 — Direct program office officials to submit eBuy requisitions for contract funding approval for transportation contacts
                                            within Contract Authoring Management System prior to contractual commitments. TID: March 2012




October 1, 2011 — March 31, 2012                                                                                                                                    43
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
MS-AR-11-006    8/24/2011    Effects of Compliance Rules on Mailers

                             R-1 — Estimate and consider mailing industry costs as part of cost-benefit analyses, where practical, to determine whether
                                   the benefits of new initiatives and rule changes are justified in light of total industry costs. TID: None

                             R-2 — Further involve stakeholder groups in formal dialogue during the strategic planning phase of new initiatives. TID: None

                             R-3 — Enhance transparency and accountability by documenting Postal Service collaborative efforts (discussions, action
                                   items, resolutions, milestones). TID: None
DA-AR-11-010    8/30/2011    Intelligent Mail: Realizing Revenue Assurance Benefits

                             R-1 — Establish timeframes for implementing the enhanced/expanded automated verifications as described in the original
                                   Intelligent Mail infrastructure Decision Analysis Report. TID: January 2013

                             R-2 — Develop a tolerance level for low scan rates to use for exception reporting. TID: January 2013

                             R-3 —Develop a process for identifying the cause(s) of low scan rates for customer follow-up as warranted.
                                  TID: January 2013
FF-AR-11-013    8/30/2011    Postal Service Refunds

                             R-2 — Analyze and establish an administrative and minimum fee that will cover processing costs. TID: January 2013

                             R-4 — Complete the update to the PostalOne! System to enable electronic transmission of Value Added Refund data to
                                   accounts payable. TID: October 2012
CRR-AR-11-003   9/6/2011     Service Performance Measurement Data - Commercial Mail

                             R-1 — Establish milestones for implementing recovery of Full-Service Intelligent Mail Barcode discounts provided to mailers
                                   when Full-Service mailings do not meet the specific requirements for the discounts received. TID: January 2013

NO-AR-11-008    9/13/2011    Timely Processing of Mail at the Richmond, VA, Processing and Distribution Center

                             R-1 — Promptly assess the current mail volume and swiftly adjust workhours, assignments, sort plans, transportation, and
                                   any other operational requirements to ensure the Richmond P&DC meets customer service commitments.
                                   TID: August 2011
IT-AR-11-009    9/14/2011    Project Phoenix

                             R-1 — Modify the Technology Solution Life Cycle process to require the identification, documentation, and analysis of
                                   applicable back-end business processes and information technology systems during the technology solution
                                   requirements, analysis, and design phases. TID: June 2012
IT-AR-11-008    9/14/2011    Remote Access Controls

                             R-1 — Implement two-factor authentication to comply with Handbook AS-805 requirements and to meet Payment Card
                                   Industry – Data Security Standards. TID: December 2012

                             R-2 — Configure remote access firewalls according to Handbook AS-805 and applicable firewall security standards.
                                   TID: March 2012

                             R-11 — Suspend remote access for all employees or contractors until they complete required security awareness training.
                                   TID: October 2012




  44                                                                                                                  Semiannual Report to Congress
                                                                                                                                                           APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
HR-AR-11-002             9/19/2011    Postal Service Work Rules and Compensation Systems

                                      R-1 — Additional increased flexibility to temporarily assign employees across crafts. TID: None

                                      R-2 — Improved workforce flexibility through non-traditional career options, such as emphasizing part-time employment as a
                                            career choice or modifying full-time assignments. TID: None

                                      R-3 — A comprehensive study to determine the optimal incentive-based carrier compensation system. TID: None
FF-AR-11-015             9/23/2011    Business Mail Acceptance Centralization Process

                                      R-1 — Adopt a standardized, clear process to guide each district on how to conduct a centralization feasibility study and
                                            update the Business Mail Entry Centralization Standard Operating Procedure accordingly. TID: April 2012

                                      R-2 — Require each district to conduct a centralization feasibility study, document the results, and take action based on the
                                            results of the study, as appropriate. TID: October 2013

                                      R-3 — Manage business mail entry workhour usage to achieve 93 percent efficiency and develop tools to monitor
                                            performance. TID: September 2012

                                      R-4 — Establish annual goals for business mail entry workhour efficiency to include measuring performance against goals.
                                            TID: September 2012
FF-AR-11-014             9/23/2011    Government Relations Operations

                                      R-1 — Establish procedures to gather workload statistics on all functions within the Office of Government Relations and Public
                                            Policy, periodically monitor those statistics, and make appropriate adjustments to the organizational structure, as
                                            needed. TID: March 2012

                                      R-2 — Develop written policies and procedures to guide operations within the Office of Government Relations and Public
                                            Policy. TID: March 2012

                                      R-3 — Review placement of the Stamp Services organization within the Office of Government Relations and Public Policy to
                                            determine whether it is properly aligned within the Postal Service based on Stamp Services’ primary mission.
                                            TID: None
NL-AR-11-006             9/23/2011    Mail Transport Equipment – Needs, Distribution, and Use

                                      R-1 — Perform a comprehensive mail transport equipment needs analysis for the network distribution center network to
                                            determine the amount of rolling stock, by type, needed on a daily basis to meet operational requirements.
                                            TID: October 2011

                                      R-2 — Monitor the purchases of cardboard containers (other than Postal Paks) for network distribution center facilities to
                                            ensure they make only necessary purchases and are the best mail transport equipment option for the Postal Service
                                            given rolling stock inventory in the network. TID: September 2011

                                      R-3 — Reissue over-the-road container policy to reflect the present and future operational needs and use of the containers
                                            within and outside the network. TID: October 2011

CA-MA-11-002             9/26/2011    Contract Delivery Service Cost Controls

                                      R-1 — Instruct administrative officials to complete route surveys for the 47 contract delivery service routes identified in this
                                            audit. TID: November 2011




October 1, 2011 — March 31, 2012                                                                                                                                    45
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
DR-AR-11-007    9/26/2011    Follow-up on City Delivery Standard Operating Procedures

                             R-1 — Re-evaluate the certification criteria and ensure the criteria require units to meet, at least the national average percent
                                   to standard for office operations. TID: December 2012

                             R-3 — Establish an annual process to de-certify units that do not maintain performance standards after certification.
                                   TID: December 2012
NL-AR-11-008    9/27/2011    Evaluation of Major Transportation Technology Initiatives

                             R-1 — Ensure that Network Operations sponsors and project managers follow the Postal Service’s technology solution life
                                   cycle guidelines. TID: October 2011

                             R-2 — Require operational deficiencies be identified for corrective action and addressed prior to project closeout.
                                   TID: November 2011

                             R-3 — Facilitate the inclusion of a robust risk assessment, risk mitigation, system data migration, and transition planning best
                                   practices into investment planning policies. TID: October 2011

                             R-4 — Ensure establishment and maintenance of the proper line of authority, funding, and oversight for key programs by
                                   responsible sponsors and management officials. TID: October 2011

                             R-5 — Ensure comprehensive training is provided for employees throughout the technology’s life cycle. TID: May 2012
CA-AR-11-007    9/30/2011    Contract Postal Units Contract Oversight

                             R-1 — Require CPU contractors to submit invoices for payment. TID: None

                             R-2 — Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices
                                   prior to payment, using data maintained in the Contract Postal Unit Technology system. TID: None

                             R-3 — Establish a mandatory training procedure to ensure all contract officer representatives receive training of appointed
                                   duties within 2 weeks of notification of the contracting officer’s representative appointment. TID: March 2012

                             R-4 — Develop an oversight mechanism to monitor whether contracting officer’s representatives conduct quarterly
                                   performance and annual financial reviews, obtained completed appointment letters, and retain contract postal unit
                                   contracts in the contract administrative files. TID: March 2012

HR-AR-11-007    9/30/2011    Postal Service Workers’ Compensation Program

                             R-1 — Continue to pursue legislative change to transform the Federal Employees’ Compensation Act into a modernized
                                   workers’ compensation program that includes best practices for increasing program effectiveness and efficiencies
                                   and reducing costs. TID: None

                             R-2 — Pursue legislative change to amend Federal Employees’ Compensation Act to allow recovery of continuation of pay
                                   benefits in third-party cases. TID: None

                             R-3 — Pursue legislative change to reform Federal Employees’ Compensation Act to allow employing agencies to present
                                   evidence at hearings when fraud is alleged. TID: None

                             R-4 — Clearly define organizational responsibilities for detecting workers’ compensation fraud:
                                     Establish requirements for Department of Labor to respond to reports of investigations within 45 days after receiving
                                       them.
                                     Establish a provider compliance program.
                                     Revise the method used to determine the administrative fee to ensure the fee is based on actual costs to administer
                                       Postal Service Workers’ Compensation Program.

                                    TID: None
                             R-5 — Develop mandatory and refresher training for Postal Service officials responsible for workers’ compensation to ensure
                                   they are aware of their roles and responsibilities for workers’ compensation. TID: September 2012




   46                                                                                                                     Semiannual Report to Congress
                                                                                                                                                            APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
MS-AR-11-007             9/30/2011    Strategic Approaches to Revenue Protection

                                      R-1 — Work with a broadened group of internal and external stakeholders to prepare for streamlining the entry of business
                                            mail, accelerate the timeline for streamlined acceptance and verification, and seek to leverage technology to provide
                                            revenue protection for Basic Service Intelligent Mail and non-automated volumes. TID: January 2013
IT-AR-12-001             10/21/2011   State of Corporate Information Technology Security

                                      R-2 — Complete the certification and accreditation process for the remaining national applications. TID: December 2013

                                      R-4 — Implement a corporate-wide encryption solution to enhance the sensitive data protection effort. TID: September 2012
CA-AR-12-001             11/2/2011    Contracting Opportunities and Impact of the Service Contract Act

                                      R-2 — Review the benefits of outsourcing cleaning/janitorial service positions and postal service vehicle driver positions and
                                            work with Supply Management to restructure those positions to achieve the most cost effective solution.
                                            TID: May 2011

                                      R-3 — Ensure that appropriate financial data is collected to aid in making in-sourcing/outsourcing decisions. TID: None
HR-AR-12-001             11/14/2011   Postal Service Health and Safety Program

                                      R-1 — Review and revise, as appropriate, supervisor performance measures to place a higher priority on maintaining a safe
                                            and healthy work environment; for example: performance measures could be linked to the number of abated and/or
                                            unabated safety hazards. TID: October 2011

                                      R-4 — Establish and implement standard operating procedures for dock operations. TID: May 2012

                                      R-5 — Perform and oversee preventive maintenance procedures for eyewash and shower units. TID: September 2012

                                      R-6 — Conduct required safety inspections and abate safety hazards in a timely manner to ensure safe and healthy working
                                            conditions for the employees. TID:September 2012

                                      R-7 — Enter Postal Service Forms 1767 accurately and timely in the Safety Toolkit. TID: September 2012
EN-AR-12-002             12/1/2011    Postal Service-Operated Retail Facilities Discontinuance Program

                                      R-1 — Develop and implement an integrated retail network optimization strategy to include specific goals and milestones.
                                            TID: None

                                      R-2 — Develop and implement an economic model that determines market demand, including projected financial, geographic,
                                            market, and demographic data. TID: February 2012

                                      R-3 — Improve the reliability and usefulness of retail facilities data by validating, correcting, and updating information in the
                                            database. TID: None

                                      R-5 — Direct headquarters employees to assess the closing of offices whose operations have been suspended prior to
                                            FY 2010. TID: June 2012




October 1, 2011 — March 31, 2012                                                                                                                                     47
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
CRR-AR-12-002   12/13/2011   Management Operating Data System

                             R-1 — Develop a monthly report that identifies the top Management Operating Data System (MODS) operation numbers and
                                   facilities causing MODS errors. TID: March 2012

                             R-2 — Expand existing MODS exception reports to include observations that exceed maximum machine throughput and
                                   manual productivities. TID: March 2012

                             R-3 — Issue monthly enhanced exception reports to management at the area, district, and facility level to highlight recurring
                                   MODS errors at facilities. TID: April 2012

                             R-4 — Develop controls within the MODS that enforce the requirement for facility managers to correct MODS errors in a timely
                                   manner. TID: September 2012

                             R-5 — Direct district and facility managers to mitigate and correct MODS errors. TID: December 2011

                             R-6 — Monitor operation numbers where the majority of MODS errors occur, and determine the potential impact on applicable
                                   cost data. TID: July 2012

                             R-7 — Evaluate existing quality assurance procedures to determine whether eliminating MODS errors at the facility level,
                                   and eliminating observations that exceed maximum machine throughputs or manual productivities, would improve the
                                   reliability of MODS-based productivities. TID: July 2012


CI-AR-12-001    12/19/2011   Innovation Best Practices Analysis

                             R-1 — Incorporate innovation planning into the Postal Service strategic plan by March 30, 2012. TID: November 2011

                             R-2 — Develop a time-phased plan to implement the first six best practices listed by September 30, 2012. TID: None

                             R-3 — Develop a time-phased plan to implement the remaining 13 best practices over the subsequent 24 months after
                                   implementing the first six best practices. TID: None

FI-AR-12-001    12/28/2011   Expedited Packaging Supplies Program

                             R-1 — Implement a comprehensive, automated procedure to determine the quantity of expedited packaging supplies retained
                                   by major mailers, Post Offices and other facilities that distribute Postal Service’s expedited packaging supplies to
                                   customers. TID: None

                             R-2 — Develop a comprehensive plan to monitor usage and identify and reduce waste associated with expedited packaging
                                   supplies. TID: September 2012

                             R-3 — Include clear and concise return procedures on each order and update the Publication 22 to reflect current changes in
                                   return policies. TID: January 2012
IT-AR-12-003    1/9/2012     Fiscal Year 2011 Information Technology Internal Controls

                             R-1 — Implement corrective actions to address all open issues noted in this report for fiscal years 2010 and 2011.
                                   TID: July 2012

                             R-2 — Implement procedures with timelines to ensure corrective actions are taken to address all open issues from prior fiscal
                                   years before control testing resumes in the subsequent fiscal year. TID: July 2012




  48                                                                                                                   Semiannual Report to Congress
                                                                                                                                                        APPENDIX E




                                       Report Title, Recommendation Summary
                                              	 R = Recommendation number
Report Number             Issue Date          	 TID = Target Implementation Date
IT-AR-12-002              1/9/2012     Patch Management Processes

                                       R-1 — Ensure that all operating system and database patches are tested, documented, and implemented as required by
                                             Handbook AS-805, Information Security. TID: June 2012

                                       R-2 — Ensure that administrators obtain required policy exception approvals when system patches are not applied.
                                             TID: March 2012

                                       R-3 — Ensure that written procedures are developed to define the patch management process for each group, operating
                                             system, and database to include test and back-out plans. TID: June 2012

                                       R-4 — Ensure that configuration management inventory records are reconciled to the actual servers and databases for their
                                             respective group. TID: June 2012

                                       R-5 — Work together to implement a process to verify that required operating system and database patches distributed to the
                                             mail processing plants are applied. TID: May 2012

                                       R-6 — Implement a common method for all entities to track information technology asset and patch information.
                                             TID: September 2012

                                       R-7 — Ensure vulnerability mediation training is provided to all employees and contractors responsible for enterprise patch
                                             management. TID: September 2012

                                       R-8 — Conduct risk assessments and cost analyses to develop an enterprise-wide migration plan for upgrading unsupported
                                             operating systems and databases to vendor-supported software. TID:September 2012

                                       R-9 — Adopt a method to identify, capture, and report patch management metrics to assist with oversight of the patch
                                             management process and facilitate related business and security decisions. TID: September 2012
FI-AR-12-002              1/10/2012    Bad Check Prevention and Collection

                                       R-1 — Increase the bad check service charge to the national retail median of $30. TID: June 2012
MS-AR-12-002              1/12/2012    Mail Verification Procedures at Detached Mail Units

                                       R-1 — Review automation efforts to date to identify improvements that can be made in the interim while mailers continue to
                                             implement Intelligent Mail barcode technologies. TID: June 2013

                                       R-2 — Continue ongoing mail verification training efforts while DMU employees continue to use manual mail verification
                                             processes. TID: January 2013

                                       R-3 — Enhance automated systems to notify managers when acceptance employees override Mail Evaluation Readability
                                             Lookup Instrument results. TID: June 2013

                                       R-4 — Develop and implement automated tools that managers can use to monitor and evaluate detached mail unit staffing
                                             and scheduling. TID: June 2013
NO-AR-12-003              1/20/2012    Consolidation of Mail Processing Operations at the Mansfield, OH, Customer Service Mail Processing Center

                                       R-1 — Identify repositioning plans for all impacted employees at the Mansfield Customer Service Mail Processing Center.
                                             TID: None

                                       R-2 — Continue to monitor and take necessary actions to ensure mail is processed timely at the Cleveland Processing and
                                             Distribution Center. TID: None
CRR-AR-12-003             1/27/2012    Revenue, Pieces, and Weight Inputs Into the Cost and Revenue Analysis Report

                                       R-2 — Explore concentrating sampling and data collection of manually processed mail from delivery units to the serving
                                             processing and distribution facilities for Revenue, Pieces, and Weight estimation purposes. TID: June 2012.




October 1, 2011 — March 31, 2012                                                                                                                                 49
APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
CI-AR-12-004    2/2/2012     Domestic Mail Manual Preparation and Acceptance Mail Instructions

                             R-1 — Combine and remove all duplications in the Domestic Mail Manual, Quick Service Guides, Business Mail Acceptance,
                                   Job Aids, and Customer Support Rulings; and publish a new document available to all mailers online.
                                   TID: November 2013

                             R-2 — Migrate to a one permit per customer requirement using PostalOne!: TID: April 2012

                             R-3 — Archive all PostalOne! deleted or canceled permits. TID: April 2012
NL-AR-12-001    2/2/2012     Postal Vehicle Service Transportation Routes – Margaret L. Sellers Processing and Distribution Center

                             R-1 — Ensure ML Sellers Processing & Distribution Center managers follow prescribed fleet management procedures for
                                   making PVS schedule changes more timely including conducting annual schedule and vehicle utilization reviews
                                   TID: November 2012

                             R-2 — Verify the reallocation of 2,424 workhours within existing PVS schedules and reallocate an additional 5,728 workhours
                                   within PVS schedules to accommodate future FSS implementation. TID: November 2012
DA-MA-12-003    2/9/2012     21st Century Post Office: Opportunities to Share Excess Resources

                             R-1 — Develop and implement a strategy to share surplus Post Office resources with appropriate federal, state, and municipal
                                   government agencies. TID: None
CA-MA-12-001    2/27/2012    Contract Delivery Service Cost Controls in the Suncoast District

                             R-4 — Establish a monitoring system to ensure route surveys are completed accurately and timely. TID: None

                             R-5 — Clarify the policy for completing route surveys in Handbook SP-1, Highway Contract Routes - Contract Delivery Service.
                                   TID: April 2012
NL-AR-12-002    2/28/2012    Standardization of Integrated Mail Handling System Loaders at Network Distribution Centers

                             R-1 — Direct network distribution centers to modify Integrated Mail Handling System loaders to safely accept over-the-road
                                   containers, while continuing to accept Postal Paks, as designed. TID: July 2012
NL-AR-12-003    3/12/2012    Density of First-Class Mail on Air Transportation

                             R-1 — Continue to develop optimization processes to increase First-Class Mail density to maximize container space.
                                   TID: April 2013

                             R-2 — For sites equipped with the Advanced Facer Canceler System series 200 machines, separate First-Class Mail to be
                                   transported by air for sorting on a single sorting machine for further processing and dispatch. TID: April 2013

                             R-3 — Develop targeted secondary sort programs to process First-Class Mail bound for air transportation to maximize
                                   container space. TID: April 2013

                             R-4 — For sites equipped with automated flat sorting equipment, adjust sensors to ensure flat tubs are filled to maximum
                                   capacity prior to discharge or removal from the machine. TID: April 2012

                             R-5 — Require that processing and distribution center managers use half-size, 1-foot letter trays in manual outgoing letter-
                                   sorting operations to optimize container space as necessary for mail dispatched on air transportation. TID: April 2012
IT-AR-12-004    3/15/2012    USPS.com Data Breach

                             R-2 — Implement consistent language in Handbook AS-805, Information Security, to clarify the timeframe required to notify
                                   the Computer Incident Response Team of security incidents. TID: December 2012
IT-AR-12-005    3/19/2012    SAP Human Capital Management System Security Assessment

                             R-1 — Encrypt human resources data at rest and in transit according to Handbook AS-805, Information Security,
                                   requirements. TID: None




  50                                                                                                                 Semiannual Report to Congress
                                                                                                                                                       APPENDIX E




                                      Report Title, Recommendation Summary
                                             	 R = Recommendation number
Report Number            Issue Date          	 TID = Target Implementation Date
HR-AR-12-002             3/30/2012    Postal Service Mail Security

                                      R-1 — Develop and implement training to ensure personnel responsible for accountable mail and keys understand their
                                            responsibilities. TID: July 2012

                                      R-2 — Establish policies and procedures requiring responsible personnel to conduct periodic reviews to ensure mail
                                            safeguarding and accountability requirements are followed. TID: July 2012

                                      R-3 — Develop and implement training for contract postal unit personnel to ensure they understand their responsibilities
                                            regarding safeguarding mail and accounting for Registered Mail. TID: July 2012
HR-AR-12-003             3/30/2012    Unauthorized Overtime Usage in Field Operations

                                      R-1 — Issue supplemental guidance to supervisors and managers to emphasize the importance of: completing and
                                            maintaining PS Forms 1017-B, Unauthorized Overtime Record, for employees who incur unauthorized overtime;
                                            approving and disapproving PS Forms 3996, Carrier Auxiliary Control, before carriers leave for their routes and
                                            reviewing the forms to assess actual time used when they return; and following badge control and clock ring
                                            procedures to help prevent unauthorized overtime. TID: September 2012

                                      R-2 — Develop a consolidated report, or revise an existing report, to include the Time and Attendance Collection System and
                                            Unauthorized Overtime Reports; and require supervisors to review the consolidated report to ensure the accuracy of
                                            the timekeeping data and improve monitoring of unauthorized overtime. TID: September 2012

                                      R-3 — Provide periodic refresher training for supervisors to emphasize their responsibilities for time and attendance, including
                                            monitoring unauthorized overtime and using PS Form 3996, Carrier Auxiliary Control, for managing delivery operations.
                                            TID: September 2012

                                      R-4 — Develop and implement performance measures or other management controls to hold managers and supervisors
                                            accountable for failing to address unauthorized overtime. TID: September 2012

                                      R-5 — Establish and implement proactive monitoring processes that include periodic reminders and a system of
                                            accountability, similar to the procedures that have been implemented in the Central Pennsylvania District to minimize
                                            unauthorized overtime. TID: September 2012




October 1, 2011 — March 31, 2012                                                                                                                                 51
APPENDIX F AND G




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period October 1, 2011 — March 31, 2012

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution

None for this report period.




APPENDIX G

Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and
2) any outstanding recommendations from any previous or current peer review that remain outstanding or have not been fully implemented.

Office of Audit

Internal Peer Reviews
The Postal Service Office of Inspector General did not undergo an internal peer review during this reporting period. The Department of Defense OIG conducted the last
peer review of our organization for the period covering April 1, 2008 – March 31, 2009, and issued a quality control review report of our audit organization on March 31,
2010. We received a peer review rating of pass and implemented all recommendations as of March 31, 2011.
A copy of this quality control review report, in its entirety, can be viewed on the USPS OIG website, www.uspsoig.gov.

External Peer Reviews
None conducted during this period.


Office of Investigations

Internal Peer Reviews
None conducted during this period.


External Peer Reviews
None conducted during this period.




   52                                                                                                                                  Semiannual Report to Congress
                                                                                                                                                                                                 APPENDIX H




APPENDIX H
Investigative Statistics*
For the period October 1, 2011— March 31, 2012

                                                                                                                Convictions/         Admin.                           Fines,     Amt. to USPS      To Mgmt.
                                             Investigations                             Indictments/                 Pretrial        Action         Cost    Restitution, and   (from previous     for Admin.
                                                Completed               Arrests         Informations             Diversions**         Taken    Avoidance         Recoveries         column)***        Action
Theft, Delay, or Destruction                                 646              160                     179                      180     352            —        $21,490,456           $113,147           326
of Mail by Employees or
Contractors
Injury Compensation                                          388                 13                    18                       16      73    $84,344,307     $246,881,254         $1,410,650               99
Fraud
Official Misconduct                                          280                 17                    15                       47      211     $642,950           $271,474          $140,397           192
Financial Fraud and                                          265                 56                    69                       74     133            —         $2,380,862         $2,307,270           133
Embezzlements
Contract Fraud                                                 69                 4                      9                       7      31       $787,661       $44,457,622      $44,456,633                24
TOTAL                                                      1,648              250                    290                       324     800    $85,774,919     $315,481,668       $48,428,097            774


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




October 1, 2011 — March 31, 2012                                                                                                                                                                       53
APPENDIX I




                                          APPENDIX I
                                          Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
                                          For the period October 1, 2011— March 31, 2012


                                                                                                                                        Withholding
                                                                                   Complaints         Consent             Cease &        of All Mail
                                          Type of Scheme                                Filed      Agreements   FROs Desist Orders           Orders
                                          Advance fee                                       1               1      1                1            —

  Financial Reporting on                  Charity                                           1               1     —                 1            —
  Investigative Activities for the        Contests/sweepstakes                             10              10      3               10             1
  Postal Inspection Service               Coupon fraud                                      8               8     —                 8             1

  Type                                    False billings                                    6               6      2                6             2

  Personnel                $170,883,696   Internet Auction                                 —               —      —                —             —

  Nonpersonnel             $33,242,523    Lotteries (foreign and domestic)                  5               5     —                 5            —
                                          Merchandise:
  TOTAL                 $204,126,219
                                             Failure to furnish                             8               8      2                8            —
  Capital obligations         $489,077
                                             Failure to pay                                 7               7     —                 7            —
                                          Misrepresentation                                14              14     —                14            —
                                          Miscellaneous                                    13              13     —                13             17
                                          Telemarketing                                    —               —      —                —             —
                                          Work at home                                      3               3     —                 3            —
                                          TOTAL                                           76              76       8              76             21

                                          Other Administrative Actions
                                          Administrative Action Requests                                                                          —
                                          Temporary Restraining Orders Requested                                                                  —
                                          Temporary Restraining Orders Issued                                                                     —
                                          Cases Using Direct Purchase Authority                                                                   —
                                          Civil Penalties (Section 3012) Imposed                                                                  —
                                          Test Purchases                                                                                           4
                                          Withholding Mail Orders Issued                                                                          21
                                          Voluntary Discontinuances                                                                               11



                                          Administrative Subpoenas Requested by the Postal Inspection Service
                                          There were three requests during the reporting period.




  54                                                                                                                   Semiannual Report to Congress
                                                                                                                                                                            APPENDIX J




APPENDIX J
Closed Congressional and Board of Governors’ Inquiries
For the period October 1, 2011­— March 31, 2012

This appendix lists the congressional and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or investigated these
inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquiries are listed in the chronological order of receipt.




Inspector General Investigations (49)
Requestor                 Allegation/Concern                                                      Major Findings/Resolution                                                 Closure Date
Representative,           Non-receipt of a package containing designer clothing after a postal    An investigation confirmed the loss, but found no evidence of                 12/01/11 
Maryland                  employee logged the package as delivered.                               misconduct by individual postal employees.

Senator, New York         Postal employees are selling pirated media at a postal plant.           An investigation elicited no witnesses of the sales or evidence to            12/07/11
                                                                                                  substantiate the allegation.
Representative,           Hostile workplace environment, favoritism, and fraudulent scanning      Our workplace review confirmed tensions remain, but management                 12/12/11
New York                  of Express Mail as delivered.                                           had already taken actions to address workplace climate. Another
                                                                                                  investigation found improper postal protocols on date and time
                                                                                                  information on scans, but the scanning of Express Mail was within
                                                                                                  reasonable limits.
Senator, Maryland         Postal contractor alleges discrimination in the competition of a        OIG audited and investigated the allegations. The reviews found no            03/19/12
                          contract.                                                               postal misconduct or irregularities as the Postal Service scaled up
                                                                                                  its contract.
Representative,           Unauthorized changes on mail-hold form at a Post Office.                An investigation confirmed a postal employee changed the end                   11/15/11
New York                                                                                          date of a mail-hold form. A report of the findings was sent to postal
                                                                                                  management for action deemed appropriate.
Representative,           Postal employee stole jewelry and cash from a package mailed to         An investigation did not substantiate the allegation of postal                10/18/11
California                Arizona.                                                                employee misconduct.
Senator, Michigan         Non-receipt of a package.                                               An investigation did not identify any suspects, reveal misconduct by          10/05/11
                                                                                                  postal employees, or locate the package.
Representative, Ohio      Non-receipt of collector's coins valued at more than $60,000; last      Our extensive investigation did not develop evidence of misconduct            01/31/12
                          scan occurred in a P&DC.                                                by postal employees; efforts to develop leads in the coin market
                                                                                                  were inconclusive.
Senator, Texas            Non-receipt of greeting cards containing cash.                          An investigation found no misconduct by postal employees and did              11/09/11
                                                                                                  not locate the missing items.
Representative,           Hostile work environment at a Post Office.                              An investigation found the behavior in the allegations did not rise to        10/18/11
New York                                                                                          the level of harassment.
Senator, Michigan         Non-receipt of official mail (from Social Security Administration and   An investigation found no postal employee involvement with the non-            12/12/11
                          the Secretary of State, Driver's License Bureau).                       receipt of mail; the postal Mail Recovery Center was also checked,
                                                                                                  but routinely destroys documents that can be re-issued, such as
                                                                                                  checks, as a security measure.
Senator, North Carolina   Theft of donation checks.                                               An investigation found recipient had erred in alleging the specifics of       11/22/11
                                                                                                  the loss; our mail integrity test produced no losses.
Senator, Virginia         Plant managers mislabeled mail in an attempt to delay the mail and      We did not substantiate the allegation, but found a sorting machine           11/08/11
                          set the complainant up for discipline.                                  had been programmed with a new plan affecting labels and
                                                                                                  performance.
Representative, Florida   Privacy Act violation.                                                  We confirmed the allegation and referred our findings to                      10/14/11
                                                                                                  management for administrative action.




October 1, 2011 — March 31, 2012                                                                                                                                                   55
APPENDIX J




Requestor                  Allegation/Concern                                                       Major Findings/Resolution                                                     Closure Date
Senator, Oregon            Mail theft by a postal employee at a Post Office.                        An on-going investigation did not reveal the reason for the losses,                12/20/11
                                                                                                    found no misconduct by postal employees, and was unable to locate
                                                                                                    the missing items.
Representative, Georgia    Forged documents affecting survivor benefits were in deceased            A court order granting power of attorney to the surviving spouse may               12/08/11
                           husband’s official personnel folder.                                     not have prevented him from taking actions affecting his benefits. Our
                                                                                                    investigation did not substantiate the allegation of forgery or alteration.
Representative, Florida    Package not received.                                                    We developed no evidence of misconduct by any postal employee and                  01/10/12
                                                                                                    no explanation for the loss.
Representative,            Harassment and retaliation by co-workers and supervisors at a Post       We declined to investigate three allegations of a hostile work                     11/15/11
South Carolina             Office.                                                                  environment due to a pending union grievance on the issues.
                                                                                                    Management disclosed an employee climate survey rated the worksite
                                                                                                    as respectful and professional. As to the alleged harassment and
                                                                                                    assault, we confirmed local police or the Inspection Service reviewed
                                                                                                    the incidents and took no formal action.
Senator, Montana           Impropriety in applications to bid on a highway contract route.          An investigation determined the award to a postal spouse was both                 11/22/11
                                                                                                    erroneous and quickly reversed.
Senator, Michigan          Management is deliberately destroying mail at a processing and           We did not substantiate the allegation of intentional destruction of              01/09/12
                           distribution center in Lansing by placing non-machinable mail into       mail, but found employees concerned about improper loading of
                           the Advanced Facer Canceller System.                                     bulky mail on the machines. Our review revealed no complaints of
                                                                                                    damaged or destroyed mail in the area.
Senator, Maryland          Continued harassment by postal inspectors and other groups since         We did not substantiate the allegation, and could not confirm any                 12/01/11
                           complainant retired from the Postal Service.                             contacts with the complainant from the agencies allegedly involved.
Representative, Florida    Management failed to properly address an OIG finding of                  The complainant's Equal Employment Opportunity (EEO) claim was                     12/12/11
                           whistleblower reprisal (WBR) in 2010; further reprisal; and fear of      based on the same facts as the current WBR complaint; therefore
                           reprisal when complainant returns to duty.                               OIG deferred to the EEO process. As to complainant's concerns
                                                                                                    about a 2010 WBR complaint we substantiated, the OIG has no
                                                                                                    authority to compel or review administrative actions taken at the
                                                                                                    conclusion of the investigation. As to complainant's concern about
                                                                                                    returning to work, we learned his former supervisors now report to
                                                                                                    other facilities.
Representative, Illinois   Postal drivers are filling up postal trucks and receiving bonus points   An investigation found that postal employees refueling postal                     10/20/11
                           at a gas station, and converting the points to personal use.             vehicles were using the gas station reward points for personal
                                                                                                    use. We found management was unaware of the activity, or that
                                                                                                    the points could have benefited the Postal Service. We advised
                                                                                                    the employees and managers of the postal policy and reported our
                                                                                                    findings for action deemed appropriate.
Representative,            Delay or theft of mail by a postal employee.                             The allegation was unfounded.                                                     10/05/11
Wisconsin
Senator, Alabama           Household items and cash were missing from package; complainant          An investigation was conducted which included interviews, searching               02/17/12
                           did not suspect package had been damaged, but found when                 the Postal Service Mail Recovery Center (MRC), and a review
                           package arrived, it included items sender denies mailing.                of records and procedures. Postal personnel who had seen the
                                                                                                    package believed it to be worn and easily subject to damage in
                                                                                                    processing. We found no history of tampering complaints from the
                                                                                                    delivery area; our search at the MRC produced no results.
Senator, Texas             Hostile work environment and delayed mail at a Post Office.              Our workplace evaluators discussed progress of threat assessment                  12/16/11
                                                                                                    and employee meetings that were underway. We also reviewed EEO
                                                                                                    complaints as a possible indicator of workplace stress and found no
                                                                                                    basis for further OIG review, noting managerial reassignments may
                                                                                                    have resolved some issues. We reviewed mail reporting system
                                                                                                    entries for delayed and curtailed mail. We found no indication of
                                                                                                    falsification of volumes or incidents of delayed mail.
Representative, Texas      Postal vendor alleges license to sell uniforms was suspended without     An investigation found that the contractor distributing gift certificates         12/07/11
                           proper notification.                                                     violated the licensing agreement with the Postal Service. The gift
                                                                                                    certificates allowed Postal Service employees to make purchases
                                                                                                    with Uniform Allowance Program funds after allotment expiration
                                                                                                    date and remaining funds should have been returned to the Postal
                                                                                                    Service. The contractor reimbursed the Postal Service.



    56                                                                                                                                                     Semiannual Report to Congress
                                                                                                                                                                             APPENDIX J




Requestor                  Allegation/Concern                                                       Major Findings/Resolution                                                Closure Date
Representative, Texas      Tampering and theft of a package containing a prescribed controlled      We did not substantiate the allegation and found minimal instances,           11/15/11
                           substance.                                                               and no patterns, of similar thefts.
Representative,            Non-receipt of mail containing a money order and gift card.              We learned the identity of the person who used the gift card, but            03/26/12
Massachusetts                                                                                       we found no connection to postal employees; we were not able to
                                                                                                    establish how the loss occurred.
Representative, Idaho      Theft of coins from a package.                                           An investigation found that there was no misconduct by postal                 11/16/11
                                                                                                    employees or evidence of theft. OIG was unable to find the missing
                                                                                                    coins.
Senate, New York           Torn and smeared mail indicates tampering.                               We did not find records of similar complaints, nor were we able to           03/26/12
                                                                                                    replicate the problems the recipient reported.
Senate Committee           Extension of detail of OIG employee to committee staff.                  Extension granted.                                                            10/07/11
Representative,            A postal employee tampered with an estranged spouse's mail.              We did not substantiate the allegation.                                      08/15/11 
Wisconsin
Representative, Arizona    A 6-year pattern of non-receipt of greeting cards and packages.          The OIG investigation confirmed some of the losses but found no              02/09/12
                                                                                                    patterns of theft in the Arizona area or reports within the Federal
                                                                                                    Crimes Database (FCD) for missing mail to assist in further review.
Chairman, House            Do federal privacy policies hinder agencies in setting up                The OIG identified the lack of computer matching agreements,                  11/14/11
Subcommittee               interdisciplinary or interagency task forces, such as could have         or difficulties in establishing them, as the biggest impediment to
                           produced better results in the Tampa, FL, IRS fraudulent tax refund      cultivating leads in the areas of identity theft and tax fraud.
                           scheme?
Representative,            Workplace issues including an employee working off the clock at a        OIG confirmed an employee was working off the clock, in apparent             01/27/12
West Virginia              Post Office while in off-duty status.                                    violation of postal regulations. We alerted the Labor Relations
                                                                                                    manager for action deemed appropriate.
Representative, Illinois   Customer was overcharged for mail services.                              Our investigation verified the customer was charged an amount                01/13/12
                                                                                                    inconsistent with the size, weight, and class of his mailings, leading
                                                                                                    to a presumption of a mistake by the employee rating the mail for
                                                                                                    postage. We reported our findings to management for administrative
                                                                                                    action.
Senator, Colorado          Employee claims hostile work environment and fears for her safety at     An investigation was conducted and did not find a hostile work               03/01/12
                           a postal plant.                                                          environment. Management noted elevated tension due to pending
                                                                                                    closure and consolidation of the plant.
Senator, South Carolina    Employee seeks resolution of Workers' Compensation overpayment           An investigation found that the employee frequently filed for state          01/13/12
                           claim.                                                                   unemployment insurance benefits by underreporting income. The
                                                                                                    investigation led to a two-count grand jury indictment. The matter is
                                                                                                    now within the jurisdiction of the United States Attorney.
Representative,            Non-receipt of certified mail.                                           We determined the carrier did not scan and obtain a signature for            03/26/12
California                                                                                          one item found to have been received. We did not find a pattern of
                                                                                                    losses in the delivery areas; management advised proper procedures
                                                                                                    would be reinforced at employee briefings.
Chairman, Senate           Requesting an unredacted copy of an OIG investigative report.            The Office of Investigations provided the committee the requested            12/02/11
Committee                                                                                           report and a summary letter.
Representative,            Postal employee claims postmaster created a hostile work                 We learned the district staff conducted a climate assessment of              02/09/12
Kentucky                   environment at a Post Office.                                            the facility, noted lack of trust and communications problems, and
                                                                                                    established a plan to address the issues and monitor progress.
Senator, Oklahoma          Conflict of interest in management of postal training.                   We did not substantiate the allegation and found outside employment          03/26/12
                                                                                                    had been properly reported.
Chairman, House            Request for a briefing on whistleblower reprisal allegations involving   Office of Investigations provided the requested briefing.                    12/09/11
Committee                  a contract award.
Representative, Florida    Delays in receiving restitution for mail theft loss.                     In July 2011, we referred our findings concerning the underlying             02/09/12
                                                                                                    complaint to the United States Attorney's Office (USAO) for
                                                                                                    prosecution. Complainant is properly listed as a victim on the
                                                                                                    documentation we presented. OIG does not have jurisdiction over
                                                                                                    restitution. If and when the court determines restitution, we expect
                                                                                                    the USAO will rely on our information.




October 1, 2011 — March 31, 2012                                                                                                                                                    57
APPENDIX J




Requestor                 Allegation/Concern                                                          Major Findings/Resolution                                                  Closure Date
Senator, Washington       Employee reports harassment by postal employees.                            As part of a Postal Service response, we advised that the                      12/09/11
                                                                                                      complainant was not a subject of any current or recent investigative
                                                                                                      activities.
Representative,           Employee reports harassment by postal employees.                            As part of a Postal Service response, we advised that the                      12/09/11
Washington                                                                                            complainant was not a subject of any current or recent investigative
                                                                                                      activities.
Representative, Florida   Mail tampering by Post Office employee.                                     We did not substantiate the allegations.                                       03/09/12
Senator, Oklahoma         OIG failed to act on a complaint concerning theft of mail and stalking      Through the Office of Government Relations, we responded that                  01/31/12
                          by a letter carrier.                                                        the OIG made numerous attempts to contact the complainant, who
                                                                                                      placed unreasonable restrictions on our proposed interview. We had
                                                                                                      already investigated his allegations, reported to postal management,
                                                                                                      and learned of completed administrative actions.



Inspector General Audits/Risk Analysis Research Center Reports (29)
Requestor                 Allegation/Concern                                                          Major Findings/Resolution                                                  Closure Date
Representative,           Proposal to consolidate the Flint P&DC into the Michigan Metroplex          Office of Audit (OA) found a valid business case exists to consolidate         10/07/11
Michigan                  P&DC may have relied on false cost savings projections, and not             destinating mail processing operations, including adequate capacity,
                          properly accounted for service reductions.                                  minimal expected customer service impacts, and higher efficiency at
                                                                                                      the receiving facility because of the increased mail volume. Auditors
                                                                                                      noted equipment relocation costs were overstated but had no
                                                                                                      material impact on the business case.
Representative, Ohio      The OIG should conduct an independent study of the proposal                 OA found a business case for the consolidation, first year savings             02/01/12
                          to move processing operations from Mansfield to Cleveland and               exceeding $4 million, and adequate capacity at the receiving facility,
                          Columbus, to ensure integrity and accountability of postal operations       but that some customer service would be negatively impacted.
                          is maintained and service not compromised.
Multiple Members,         The OIG should conduct an expedited audit of the consolidation of           OA found a business case to support the consolidation, including               10/18/11
California                processing from Industry into Santa Ana, to ensure expected savings         annual savings exceeding $1 million, and adequate capacity at the
                          materialize and service levels are maintained.                              receiving facility, which has higher efficiency and productivity levels.
Representative,           A potential subcontractor was shut out of competition under a request       The Postal Service planned to re-compete the contract and invite the            12/13/11
Missouri                  for proposals issued by a postal contractor.                                complaining company to compete.
Representative,           An expedited audit of the ongoing consolidation of mail processing          OA found a business case for the consolidation, first year savings             03/07/12
California                and distribution from Oxnard into Santa Barbara is needed because           exceeding $2 million, and adequate capacity at the receiving facility,
                          of issues of job loss, environmental impact, and lack of transparency       but that some customer service was negatively impacted.
                          in the process not adequately addressed by the Postal Service.
Senator, Ohio             Audit of consolidation affecting Mansfield.                                 OA found a business case for the consolidation, first year savings             02/01/12
                                                                                                      exceeding $4 million, and adequate capacity at the receiving facility,
                                                                                                      but that some customer service would be negatively impacted.
Representative,           OIG's official rebuttal to the Governmental Accountability Office (GAO)     We provided a copy of our October 11, 2011, letter to GAO's Lorelei            10/18/11
Massachusetts             report about overfunding of CSRS.                                           St. James, Director, Physical Infrastructure.
Representative,           Execution of the Postal Service plan to close retail postal facilities in   Because of the breadth of the proposal to reduce the postal retail             12/06/11
West Virginia             southern West Virginia.                                                     footprint, our Office of Audit has undertaken a review of the
                                                                                                      nationwide plan.
Representative, Ohio      OIG should conduct an independent study of Area Mail Processing             OA added a review of this consolidation to its ongoing work on the              11/18/11
                          (AMP) proposal consolidating the Toledo P&DC into the Michigan              future of the processing network.
                          Multiplex.
Representative,           OIG should audit the consolidation of the Kingsford, MI, P&DC into          OA added a review of this consolidation to its ongoing work on the             12/06/11
Michigan                  Green Bay, WI.                                                              future of the processing network.
Alaska delegation         Inaccuracies in the OIG report titled Alaska Bypass: Beyond its             We responded, noting that while Alaska has special challenges due               12/14/11
                          Original Purpose prepared by RARC.                                          to its lack of adequate road and highway infrastructure, we believe
                                                                                                      the associated costs should be borne by state or federal taxpayers
                                                                                                      rather that postal customers. We also responded to the nine specific
                                                                                                      points of inquiry.




    58                                                                                                                                                        Semiannual Report to Congress
                                                                                                                                                                        APPENDIX J




Requestor                  Allegation/Concern                                                     Referred To                                                           Closure Date
Representative,            Request for an OIG audit into the consolidation of the Lafayette       OA added a review of this consolidation to its ongoing work on the         12/15/11
Louisiana                  P&DC with the Baton Rouge P&DC.                                        future of the processing network.
Representative, Ohio       Plant management, in an effort to have all raw mail done by            Our audit reviewed Advanced Facer Canceller System runtime data           03/05/12
                           9:30 p.m., is stopping cancellation and processing, bundling the       and made on-site observations and interviews with plant personnel.
                           remaining mail and entering it into the mail stream. This bypasses     We concluded the allegation that mail bypassed the BDS was not
                           the Biohazard Detection System (BDS).                                  substantiated.
Representative, Illinois   Request for an OIG review of the postal study of consolidating the     OA added a review of this consolidation to its ongoing work on the         12/15/11
                           Rockford, IL, P&DC into Madison, WI.                                   future of the processing network.
Ranking Member,            Analysis of executive compensation and other issues.                   Financial data and operations observations provided as requested.         01/05/12
Senate Committee
Senator, Pennsylvania      Requesting an OIG audit into the consolidation of the Scranton P&DF    OA added a review of this consolidation to its ongoing work on the        02/24/12
                           into the Lehigh Valley P&DC, and expressing concerns about impacts     future of the processing network.
                           on the postal workforce and business community.
Senator, Vermont           Compilation of audit report data, including effect of eliminating      We provided our analysis of the effect eliminating the requirement        02/06/12
                           the requirement for the Postal Service to make annual $5.5 billion     would have, including an estimated growth in the retiree healthcare
                           payments to its retiree health benefit fund.                           fund over 21 years from $44 billion to $90 billion, which is the
                                                                                                  estimated current liability. We also provided observations about
                                                                                                  the frequency and levels of pre-funding in retiree health care and
                                                                                                  pension funds in the public and private sectors.
Representative,            OIG should perform an independent review of the Postal Service         OA added a review of this consolidation to its ongoing work on the        03/02/12
Kentucky                   decision to consolidate the Lexington, KY, P&DC into Louisville, KY,   future of the processing network.
                           and Knoxville, TN, P&DCs
Senator, Pennsylvania      Requests an independent review of the proposal to consolidate          OA added a review of this consolidation to its ongoing work on the        03/26/12
                           Greensburg P&DF into the Pittsburgh P&DC to ensure that the            future of the processing network.
                           decisions reached accurately and effectively enhance postal
                           operations without harming customers or workforce.
Senator, Pennsylvania      Requesting an independent review of the proposed consolidation         OA added a review of this consolidation to its ongoing work on the        03/26/12
                           of the Reading P&DC into the Harrisburg P&DC to ensure that            future of the processing network.
                           the decisions reached accurately and effectively enhance postal
                           operations without harming its customers or workforce.
Representative,            Requests the OIG review the postal decision to consolidate the         OA added a review of this consolidation to its ongoing work on the        02/29/12
Pennsylvania               Southeastern with the Philadelphia P&DC.                               future of the processing network.
Representative,            Requests an independent review of the way in which the Postal          OA added a review of this consolidation to its ongoing work on the        03/13/12
New York                   Service conducted the large set of AMP studies nationwide, and the     future of the processing network.
                           Buffalo P&DC study in particular.
Senator &                  Requesting audit of the consolidation of the New Castle P&DF into      OA added a review of this consolidation to its ongoing work on the        03/12/12
Representative,            the Pittsburgh P&DC, and expressing concerns about impacts on the      future of the processing network.
Pennsylvania               postal workforce, business community, and service standards.
Senator &                  Requesting audit of the consolidation of the Southeastern P&DC into    OA added a review of this consolidation to its ongoing work on the        03/12/12
Representative,            the Philadelphia P&DC, and expressing concerns about impacts on        future of the processing network.
Pennsylvania               the postal workforce, business community, and service standards.
Representative,            Requests the OIG investigate the Postal Service decision to close      OA added a review of this consolidation to its ongoing work on the        03/13/12
Missouri                   the Springfield P&DC and consolidate the work at the Kansas City,      future of the processing network.
                           MO, plant.
Senator, Pennsylvania      Requests we review studies proposing consolidation of the Altoona,     OA added a review of this consolidation to its ongoing work on the        03/13/12
                           PA, P&DC into the Johnstown P&DC, to ensure that the decisions         future of the processing network.
                           reached accurately and effectively enhance USPS operations without
                           harming its customers or workforce.
Senator, Pennsylvania      Requests we review studies proposing consolidation of the              OA added a review of this consolidation to its ongoing work on the        03/13/12
                           Williamsport, PA, P&DC into the Harrisburg P&DC, to ensure that        future of the processing network.
                           the decisions reached accurately and effectively enhance USPS
                           operations without harming its customers or workforce.




October 1, 2011 — March 31, 2012                                                                                                                                               59
APPENDIX J




Requestor                  Allegation/Concern                                                        Referred To                                                           Closure Date
Representative,            Requests an independent review of the methodology and decision-           OA added a review of this consolidation to its ongoing work on the        03/26/12
Pennsylvania               making process behind the decision to consolidate Southeastern into       future of the processing network.
                           Philadelphia P&DC.
Chairman, House            Access to an unredacted audit report.                                     We provided OIG audit, September 3, 2010, Follow-up Review of the         03/28/12
Committee                                                                                            Postal Service’s Employee Benefits Programs (HR-MA-10-001).




Referrals and Similar (9)
Requestor                  Allegation/Concern                                                        Referral to or Other Action                                           Closure Date
Representative, Florida    Unjust removal from a postal position.                                    This matter did not fall under jurisdiction of the OIG, however the       11/08/11
                                                                                                     correspondence has been forwarded to the U.S. Postal Service
                                                                                                     Government Relations Office (GRO).
Senator, North Carolina    Mail fraud.                                                               This matter did not fall under jurisdiction of the OIG, however the       10/12/11
                                                                                                     correspondence has been referred to the U.S. Postal Inspection
                                                                                                     Service (IS).
Representative, Illinois   Employment issues.                                                        GRO                                                                       11/02/11
Representative,            Employment issues.                                                        GRO                                                                       11/08/11
Kentucky
Representative,            The issue of a lost coin from December 2009 was not resolved.             Postal Service Office of Consumer Affairs responded and included a        12/02/11
Colorado                                                                                             copy of OIG's previously released investigative records.
Representative,            A letter carrier put a letter supporting a partisan candidate for local   Referred as required by postal rules to the U.S. Office of Special        12/28/11
Pennsylvania               office into mailboxes on the carrier's route, in an apparent violation    Counsel.
                           of the Hatch Act.
Representative,            Mail fraud scheme.                                                        IS                                                                        12/28/11
New York
Senator, Ohio              Management failure to implement grievance settlements; and snow           We declined to interfere in the on-going grievance resolution             03/20/12
                           emergency safety issue.                                                   process.
Representative, Ohio       Management is fraudulently accounting for scheduled and                   GRO                                                                       03/14/12
                           unscheduled leave, and providing financial benefits to employees
                           who appear not to have taken unscheduled leave.




    60                                                                                                                                                   Semiannual Report to Congress
                                                                                           FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                          SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
The OIG’s Freedom of Information Act (FOIA) Office operates independently         The OI Workplace Environment unit reviews workplace environment and
of, but frequently coordinates with, its counterparts at the Postal Service and   operational issues that may affect workplace climate in postal facilities
the Postal Inspection Service. The FOIA Office receives requests for records      through the country. The OIG Hotline is the usual source for the complaints,
from the public, the media, and postal employees. The FOIA, according to          but occasionally members of Congress, the Governors, and postal
the Department of Justice, “generally provides that any person has a right,       management will raise concerns or forward complaints appropriate for
enforceable in court, to obtain access to federal agency records, except to       review by the unit. Complaint topics range from sexual harassment and
the extent that such records (or portions of them) are protected from public      discrimination to workplace safety. Workplace Environment reviews are
disclosure by one of nine exemptions.”                                            designed to identify systemic, rather than individual, issues and foster
                                                                                  postal management efforts toward providing employees a stress- and
For the period October 1, 2011 — March 31, 2012                                   adversity-free work environment.

                                                                                  The unit accepts complaints from any postal employee, including OIG
                                                                                  and Postal Inspection Service staff. Reviews may result in fact-finding
Requests                                               Number of Requests         reports to management or referral for specific suggested action, such as
Carryover from prior period                                                 18    climate assessments.
Received during period                                                     310
Total on hand during period                                                328    Activities
                                                                                  For the period October 1, 2011 - March 31, 2012
Actions                                                Number of Requests
Processed during the period                                                307    Complaints Received                                               Total
   Requests denied in full                                                   8    Carryover from prior period                                          18
   Requests denied in part                                                  84    Complaints received from OIG Hotline, Congress, governors,          237
   Requests granted in full                                                  9    management, internal, and other

   No records                                                               31    Total on hand during this period                                    255

   Requests referred*                                                      133
   Requests withdrawn                                                        9    Workplace Environment Actions                                     Total

   Fee-related reasons                                                      —     Complaints reviewed and closed during the period                    226

   Records not reasonably described                                          1    Referred to Postal Inspection Service                                 1

   Not a proper FOIA request for some other reason                           7    Referred to Office of Audit                                          —

   Not an agency record                                                     23    Referred to Office of Investigations                                  2

   Duplicate request                                                         2    Referred to Workplace Environment                                    32
                                                                                  Referred to Hotline                                                   5
Balance                                                Number of Requests         Referred to Summary of findings to Congress/BOG/Postal               36
                                                                                  Service Management
Balance at the end of the period (pending)                                  21
                                                                                  Referred to FOIA                                                     —

Processing Days                                              Number of Days       Referred to AIG for Investigations                                   —

Median processing days to respond to a FOIA request                           2   Referred to Database for statistical analysis and possible          147
                                                                                  systemic review
                                                                                  Complaints pending at the end of the period                           3




October 1, 2011 — March 31, 2012                                                                                                                        61
ACRONYM GUIDE




                       Acronym Guide
                       Here is a quick guide to acronyms used in this reporting period.

                       APPS: Automated Package Processing System                                NALC: National Association of Letter Carriers

                       APWU: American Postal Workers Union                                      NCSC: National Customer Support Center

                       C&A: certification and accreditation                                     NDC: network distribution center

                       CSRS: Civil Service Retirement System                                    NPV: net present value

                       CSS: customer service supervisor                                         OA: Office of Audit

                       DBCS: Delivery Barcode Sorter                                            OI: Office of Investigations

                       DOL: U.S. Department of Labor                                            OWCP: Office of Workers’ Compensation Programs

                       DEA: Drug Enforcement Administration                                     P&DC: processing and distribution center

                       DWC: distribution window clerk                                           P&DF: processing and distribution facility

                       eCBM: Electronic Conditional Based Maintenance                           PAEA: Postal Accountability and Enhancement Act of 2006
                                                                                                      (also known as the Postal Act of 2006)
                       EDDI: Electronic Data Distribution Infrastructure
                                                                                                PKI: Public Key Infrastructure
                       EDI: Electronic Data Interchange
                                                                                                PRC: Postal Regulatory Commission
                       EIR: Enterprise Information Repository
                                                                                                PVS: Postal Vehicle Services
                       FEGLI: Federal Employees’ Group Life Insurance
                                                                                                RARC: Risk Analysis Research Center
                       FEHB: Federal Employees Health Benefits
                                                                                                SBOC: Stations and Branches Optimization Consolidation
                       FSS: Flats Sequencing System
                                                                                                SSA: sales and services associate
                       GMU: George Mason University
                                                                                                TACS: Time and Attendance Collection System
                       HCR: highway contract route
                                                                                                VMF: Vehicle Maintenance Facility
                       LLV: long-life vehicles

                       MTE: mail transport equipment




The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®, First-Class Mail®, usps.com®,
Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®,
Express Mail International®, Quick, Easy, Convenient®, United States Postal Service Office of Inspector General® , Post Office™, Postal Service™, Signature Confirmation™, Certified
Mail®, Delivery Confirmation™, Registered Mail™, ZIP Code™, Carrier Pickup™, Priority Mail International®, First-Class Mail International®, Premium Forwarding Service®, Forever
Stamp® and Postmaster General™.

Note: USPS Delivery Confirmation® and Approved by the Postmaster General® are registered marks also owned by the United States Postal Service.



62                                                                                                                                               Semiannual Report to Congress
Who do I call?
The U.S. Postal Service has two law enforcement agencies with distinct areas of investigative
responsibility to serve the needs of stakeholders, postal employees, and the American public.

             Office of Inspector General                           Postal Inspection Service
             ■■ 	 Theft, delay, or destruction of mail             ■■ 	 Security of employees, facilities,
                  by employees and contractors                          and equipment
             ■■ 	 Workers’ compensation fraud                      ■■ 	 Revenue and postage fraud
             ■■ 	 Embezzlements and financial crimes               ■■ 	 International mail security
             ■■ 	 Contract fraud                                   ■■ 	 Violent crimes:
             ■■ 	 Kickbacks                                             - Threats and assaults of employees
                                                                        - Burglaries and robberies
             ■■ 	 Computer crimes
                                                                   ■■ 	 Mail theft by nonemployees
             ■■ 	 Narcotics
                                                                   ■■ 	 Dangerous mail and bombs
             ■■ 	 Employee misconduct
                                                                   ■■ 	 Mail fraud
             ■■ 	 Internal affairs and executive investigations
                                                                   ■■ 	 Identity theft
             ■■ 	 Whistleblower reprisals
                                                                   ■■ 	 Narcotics in the mail
                                                                   ■■ 	 Child pornography and obscenity
             Contact: 888-USPS-OIG
             www.uspsoig.gov
                                                                   Contact: 877-876-2455
                                                                   http://postalinspectors.uspis.gov/
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov
